<html>
<title> - MISSILE DEFENSE: A NEW ORGANIZATION, EVOLUTIONARY TECHNOLOGIES AND UNRESTRICTED TESTING</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  MISSILE DEFENSE: A NEW ORGANIZATION, EVOLUTIONARY TECHNOLOGIES AND 
                          UNRESTRICTED TESTING
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2002

                               __________

                           Serial No. 107-110

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                           U.S. GOVERNMENT PRINTING OFFICE
81-892                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 16, 2002....................................     1
Statement of:
    Kadish, Lieutenant General Ronald T., U.S. Air Force, 
      Director, Missile Defense Agency, Department of Defense; 
      Thomas P. Christie, Director, Operational Test and 
      Evaluation, Department of Defense; and Kent G. Stansberry, 
      Deputy Director, Missile Warfare for the Under Secretary of 
      Defense (Acquisition, Technology and Logistics)............    15
    Levin, Robert E., Director, Acquisition and Sourcing 
      Management, U.S. General Accounting Office, accompanied by 
      Barbara H. Haynes, Assistant Director; Ambassador David J. 
      Smith, Chief Operating Officer, National Institute for 
      Public Policy; William R. Graham, former Director, Office 
      of Science and Technology Policy, Executive Office of the 
      President; chairman and CEO, National Security Research, 
      Inc.; and Eric Miller, senior defense investigator, the 
      Project on Government Oversight............................    82
Letters, statements, etc., submitted for the record by:
    Christie, Thomas P., Director, Operational Test and 
      Evaluation, Department of Defense, prepared statement of...    34
    Graham, William R., former Director, Office of Science and 
      Technology Policy, Executive Office of the President, 
      prepared statement of......................................   109
    Kadish, Lieutenant General Ronald T., U.S. Air Force, 
      Director, Missile Defense Agency, Department of Defense, 
      prepared statement of......................................    19
    Levin, Robert E., Director, Acquisition and Sourcing 
      Management, U.S. General Accounting Office, prepared 
      statement of...............................................    85
    Miller, Eric, senior defense investigator, the Project on 
      Government Oversight, prepared statement of................   117
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Smith, Ambassador David J., Chief Operating Officer, National 
      Institute for Public Policy, prepared statement of.........   101
    Stansberry, Kent G., Deputy Director, Missile Warfare for the 
      Under Secretary of Defense (Acquisition, Technology and 
      Logistics), prepared statement of..........................    40


  MISSILE DEFENSE: A NEW ORGANIZATION, EVOLUTIONARY TECHNOLOGIES AND 
                          UNRESTRICTED TESTING

                              ----------                              


                         TUESDAY, JULY 16, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shay, Putnam, Gilman, Platts, 
Schrock, Kucinich, Schakowsky, Tierney, Allen, and Lynch.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Dr. R. Nicholas 
Palarino, senior policy advisor; Jason M. Chung, clerk; David 
Rapallo, minority counsel; and Earley Green, minority assistant 
clerk.
    Mr. Shays. Good morning, everyone. I'd like to welcome our 
witnesses, to both panels, our guests, and obviously I welcome 
all our Members.
    Under the National Missile Defense Act of 1999, it is the 
policy of the United States to deploy a missile defense system 
as soon as technically possible. Today we continue our 
oversight of the complex process of assessing and managing 
technological possibilities.
    Almost 2 years ago, the subcommittee heard from the 
Department of Defense [DOD], the Department of State and others 
expressing a wide diversity of views on the technical 
feasibility of the national missile defense envisioned by the 
Clinton administration. Some believe technical progress had 
been hobbled by treaty constraints. Others foresaw a rush to 
failure as the political drive to deploy a missile shield 
ignored scientific uncertainties.
    Since then, the program has been refocused to include boost 
phase systems like the airborne laser [ABL], missile defense 
office has been elevated to a DOD agency, the U.S. withdrawal 
from the anti-ballistic missile [ABM], treaty took effect last 
month. In view of these changes, Representative Tierney, a very 
active member of the subcommittee, asked that we revisit the 
process of judging the readiness of missile defense 
technologies.
    That process has raised issues about the articulation of 
system requirements, the testing agenda, program structure, 
cost controls and deployment thresholds. Not at issue, the 
reality and immediacy of the threat.
    Last April, subcommittee members received a classified 
briefing on national missile programs threatening regional and 
global security. That briefing confirmed a key finding of the 
Commission to Assess the Ballistic Missile Threat to the United 
States, also known as the Rumsfeld Commission, that, ``The 
threat to the U.S. posed by these emerging capabilities is 
broader, more mature and evolving more rapidly than had been 
reported in estimates and reports by the intelligence 
community.''
    In securing our Nation in a volatile world, ranking threats 
and vulnerabilities is as essential as avoiding illusionary 
choices. Terrorists, acting as human delivery systems, do not 
need missiles to bring chemical, biological or even nuclear 
weapons to this continent. But that fact alone should not blind 
us to the emerging peril posed by nations developing and 
proliferating missile technologies. It is no coincidence that 
the roster of terrorism state sponsors contains many of the 
same nations building offensive missile capabilities.
    Before the threats emerge, each much be confronted on its 
own terms. So it is not a question of whether, but when the 
United States begins to deploy a baseline missile defense 
system against known hostile capabilities. That timing will be 
driven by the legal mandate to do so as soon as possible, and 
by a knowledge base development and acquisition process that 
will add new technologies to the layered missile defense system 
envisioned by the administration.
    It is that process we examine this morning. Our witnesses 
bring impressive breadth of experience and depth of expertise 
to our discussion of these important issues, and we look 
forward to their testimony.
    I might add that I was someone who was an opponent of this 
missile defense, and someone who believes that it has become a 
necessity. Having said that, I'm someone who is determined that 
we not move forward until we actually have a system that is 
workable. And I would also say to you that I think we have a 
panel that allows both those who are critical, skeptical, even 
opponents of the system to be able to gather some very 
important information. So I think we're going to learn a lot 
from this hearing, and I thank all of our witnesses.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 81892.001
    
    [GRAPHIC] [TIFF OMITTED] 81892.002
    
    Mr. Shays. At this time I would recognize our distinguished 
Ranking Member, Mr. Kucinich.
    Mr. Kucinich. I want to thank the Chairman for calling this 
hearing regarding missile defense to explore a solution which 
is unworkable and unaffordable for a problem which is 
undefinable and often not believable. I'm very concerned about 
the recent actions by the Defense Department to reorganize its 
missile defense programs. Although the Pentagon has argued that 
the reorganization was necessary to speed up development of 
missile defenses, I'm concerned it will significantly reduce 
the oversight of and attention to the program's enormous costs 
and technical challenges.
    On January 2, 2002, Secretary of Defense Rumsfeld issued a 
directive reorganizing the missile defense programs at the 
Pentagon. The change redesignated the Ballistic Missile Defense 
Office as the Missile Defense Agency. The new emphasis defined 
all of the missile defense initiatives as one large research 
and development program. This action reduces the oversight 
required by Congress.
    Operational requirement documents were eliminated relating 
to individual programs. Time lines for development will not be 
established, and the Department of Defense has declined to set 
an overall architecture for this new system.
    I might say that under these circumstances, the possibility 
for the taxpayers to be cheated is pretty serious. The DOD 
calls this new evolutionary acquisition strategy, in which the 
development, testing and acquisition all could occur 
simultaneously, rather than waiting for an entire system to be 
proven to work, the Pentagon could examine discrete successes 
in research and development at regular intervals and decide 
whether some aspect of the technology might serve a useful 
military purposes. Pentagon officials could take what they like 
and put it in the field. They could upgrade it later if the 
technology developed further.
    In this spiral development strategy, the Pentagon will not 
focus on strict requirements for the program, but on various 
capabilities that may develop. From an oversight perspective, 
this approach has very few parameters by which to judge 
success. I think that's intentional. There is no way Congress 
can determine whether the program is over budget, because there 
are no cost projections. There is no way to determine an 
appropriate level of funding, because unlike other major 
weapons development programs, there is no final goal to which 
the program is striving.
    There is also no way for Congress to gauge the appropriate 
pace of the program. Congress cannot determine whether progress 
is slow, because there are no dates by which the requirements 
must be met. In fact, there are no requirements at all. So what 
does this say about Congress's Constitutional oversight role?
    In effect, what DOD is trying to do is eliminate Congress's 
oversight role while it spends, according to CBO estimates, at 
least $238 billion on a program that everyone at this point 
with any honesty knows doesn't work. Although the Pentagon has 
provided cost estimates for each element prior to the 
reorganization, it has since refused to provide a cost estimate 
for the ballistic missile defense system. This is because the 
Pentagon claims it does not know what the system will be.
    Indeed. But without cost projections for the system, it's 
impossible for Congress to determine whether the program is 
over budget.
    This concern is significant, because Pentagon weapons 
programs routinely exceed their initial projections, often by 
substantial amounts. That's how contractors get the business. 
Indeed, in addition, it's impossible for Congress to make risk 
benefit decision that place the missile defense system in the 
context of all other weapons systems. It's also difficult to 
know exactly what the American taxpayers would get for their 
dollar. Defense? Unlikely.
    Although the actions of the Pentagon in restructuring the 
missile defense program are purportedly designed to speed up 
the process of technology development and deployment of 
militarily useful assets, I maintain another goal is to reduce 
oversight and prevent cost delays and technological flaws from 
garnering public attention. There is evidence that the Pentagon 
will go to somewhat extended lengths to prevent public 
disclosure of negative aspects of its program.
    One example is a report by Mr. Coyle that listed numerous 
flaws in the testing program. This unclassified report was 
prepared by the director of the independent Pentagon testing 
office created by Congress specifically to provide an unbiased 
review of testing adequacy. In a hearing in September 2000 
before this subcommittee, Mr. Coyle testified regarding the 
contents of this report, and pursuant to a request by 
Representative Tierney, agreed to provide it. The Department of 
Defense tried repeatedly to keep the Coyle Report from 
Congress. Despite numerous requests from Mr. Tierney, the 
Pentagon refused to deliver the report for over 8 months, 
disregarding a statute requiring the report be provided.
    The Pentagon finally delivered the report after 55 Members 
of Congress, including the ranking minority members of three 
congressional committees, wrote to the Secretary of Defense. 
Even then, the Pentagon's official position remained, the 
public should be denied access to this unclassified 
information. In addition to failing to produce the report, the 
Missile Defense Agency had begun to withhold other information 
that was previously available.
    Last month, Congress was informed of an abrupt oral 
directive from General Kadish. He ordered his deputies to 
classify as secret all information relating to decoys, even if 
general in nature, despite the fact that this information has 
been available for decades. In an op ed on June 11, 2002, Mr. 
Coyle, who has since left Government service, wrote ``Some 20 
developmental tests, each costing $100 million, will be needed 
before the ground based mid-course defense program is ready for 
the next step realistic operational testing. It may be the end 
of this decade before such testing with real world decoys can 
begin.''
    Thus the current test program is not giving away any 
secrets, nor is there any danger of that for years to come. The 
new classification policy is not justified by either the 
progress of tests so far or by the realism of the test. So what 
we have here, Mr. Chairman, is an effort by the Department of 
Defense to eliminate congressional oversight. And I might say, 
it's congressional oversight on an issue that's very serious, 
the defense of our country.
    And we're leaving the American people to believe that 
somehow they're going to be protected against missiles which 
may in some distant future come in from some undefined enemy 
that has undefined technology. So far, all I see with this 
missile defense program is a bunch of baloney.
    Mr. Shays. I thank the gentleman.
    At this time, the Chair recognizes the vice chairman of the 
committee, Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. Thank you for putting 
this hearing together and your leadership on this issue.
    I had not prepared an opening statement, instead looking 
forward to hearing from the expert testimony.
    I do find it somewhat interesting that those who have 
expressed their passionate opposition to the program and to the 
spiral development process are in essence holding up the 
current procurement and acquisition process as a model of 
efficiency. This is, the reference to an undefined enemy and an 
undefined technology I think is somewhat inaccurate, in that we 
do have a defined enemy, a list of nations which are rapidly 
developing the technology and in some cases, have developed the 
technology to successfully launch short and medium range 
missiles and are well on their way toward developing long range 
missiles which threaten our troops in theater and within the 
near future, the continental United States.
    So I would respectfully disagree with my colleague in that 
we do have a defined enemy, we do have defined technologies. We 
have had briefings and hearings on those nations and on those 
technologies. And this subcommittee has in its oversight role 
had access to that information. So I think that to a degree, 
you sell the oversight role of the Congress and your own 
abilities and oversight and this subcommittee short in that we 
have exercised that right, we have had reports forthcoming and 
had GAO prepare additional reports. And we are here today to 
take testimony from those people who are involved in that.
    So from the oversight capacity, I would respectfully 
disagree that there is a malicious conspiracy at the Pentagon 
to withhold information from this subcommittee. With that, I 
thank the chairman and look forward to the testimony.
    Mr. Shays. I thank the gentleman.
    At this time, the Chair recognizes the distinguished 
gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. I thank the chairman.
    I want to express my gratitude to Chairman Shays for 
conducting today's hearing and want to extend my appreciation 
to the panelists for the time, the insight and their testimony.
    I do want to make a comment to my colleague from Florida, I 
don't think anybody is holding up what's gone on in the past as 
a model of efficiency. But I think it has been a model of 
transparency in oversight. One of the reasons we're having this 
hearing today is, if this procedure continues to go forward as 
the way that the Pentagon has proposed it, I fear and others 
fear that you can kiss that goodbye. You won't be having 
meaningful oversight hearings any more because you won't have 
any method by which to measure progress or costs as things go 
on.
    That's why I have serious concerns about the way the 
missile defense program has been reorganized under this 
administration. Whether we agree with the program or don't 
agree with the program, I think our responsibility as a 
Congress is to make sure that if one is going forward, that we 
have an idea of what the costs are, that we have an idea of 
what its efficiencies are and its capabilities are. And it 
concerns billions of dollars. I don't think any of us want that 
wasted. And we don't want it thrown away as we proceed down 
this course.
    When the Secretary issued his pronouncement on January 2, 
that he was reorganizing the programs, he made fundamental 
changes that I think threaten our ability to have oversight. 
They are probably going to threaten our ability to have any 
informed choices about the Nation's priorities, and they're 
going to reduce the involvement of the independent offices of 
Mr. Christie and others, taking away from them the opportunity 
to evaluate testing, establish military requirements and 
predict costs.
    The directive virtually combined all the existing missile 
defense programs, regardless of the stages of development, into 
a single new ballistic missile defense system. Incredibly 
enough, a number of those systems had been at a stage where 
they were being evaluated, and this method of clumping them all 
together sets them all back to a point where we're now supposed 
to believe that there's just no opportunity to set out specific 
goals and achievement markers.
    It's also removed formal military requirements from the 
programs. It then was converted into a giant research and 
development program with no parameters to gauge success. So 
there's no architecture, there's no time line, there's no cost 
estimate. Essentially there are no limits, and we all ought to 
be concerned about that. We ought to be concerned when 
Secretary Rumsfeld makes the statement, and I suspect he was 
serious, but I'm disturbed about the fact that he was, his 
statement in July was, we don't have a system, we don't have an 
architecture, we don't have a proposed architecture. All we 
have is a couple of handfuls of very interesting research and 
development and testing programs.
    Well, you know, for $238 billion of projected costs, you 
ought to have a hell of a lot more than that. I think it's 
insulting to Congress and insulting to the American people to 
project forward that this is where they're at and we're all 
supposed to take it on good faith. This unprecedented level of 
flexibility may be appropriate, I don't know that it is, but it 
may be appropriate for some minuscule program, but surely not 
when you're dropping $8 billion a year in research for the most 
technologically daunting weapons program ever attempted.
    When we met last in September 2000, the subcommittee heard 
horror stories about the ground based midcourse system. With 
respect to cost, we discovered that they were skyrocketing. In 
fact, General, I remember you estimating about $21 billion, and 
it wasn't until we showed you one of your own internal memos 
that you had to acknowledge it was already up to $63 billion.
    With respect to that whole situation, their independent 
cost estimating group that were provided, now you have no 
yardstick to gauge success. So even though you estimated, you 
estimated wrong, at least we had some measurement on which to 
go forward. Now we have no way of knowing whether the program 
measures up or not.
    With respect to capabilities, we heard even more dire 
descriptions. We heard from the Pentagon Chief Independent 
Testing Evaluator, Mr. Coyle, Mr. Christie's predecessor, who 
told us that testing in the program was severely deficient. It 
didn't test against basic threats, and it was so immature it 
could not be evaluated in terms of potential deployment dates.
    Again, we had yardsticks, we had an operational 
requirements document and a testing evaluation master plan. 
Now, after reorganization, we have none of those tools.
    On costs, the Pentagon refuses to provide any estimates for 
its new system, which is very convenient, even though Defense 
officials are pushing ahead with the same ground based 
midcourse system this subcommittee referred 2 years ago, they 
refuse to provide a cost estimate. In this case, how are we to 
know whether the system goes over budget? How are we going to 
know if the funds are being wasted? How will we make tough 
choices on whether to spend funds on missile defense or other 
priorities, such as bioterrorism preparedness? And the answer 
is, we cannot.
    Just yesterday the administration came out with what was 
supposed to be its threat and risk assessment. In fact, they 
don't even mention anything other than homeland security 
issues, and don't stack up the different threats that this 
country faces one against the other at all.
    We have the same problem with requirements in testing in 
this national missile defense program. The directive eliminated 
operational requirements documents, converting the program into 
a vast research and development project. Despite a year and a 
half in office, the administration has yet to develop a test 
and evaluation master plan to describe a specific test, with 
specific goals and the time lines that it will conduct.
    That document was originally due in June. Now we're told it 
won't be completed until the fall. So how do we evaluate 
whether the Pentagon is meeting its goals? How do we know the 
program is progressing efficiently? How do we know if the 
program is even worth pursuing?
    The rationale for this incredible flexibility is that 
urgency demands it. I think Mr. Miller is going to talk a 
little bit later about how many times in history we have heard 
urgency demands this kind of an approach, only to find out that 
we spend more money and get farther behind.
    Rather than designing a rational developmental program that 
specifies concrete testing goals and provides comprehensive 
budget estimates, the Pentagon wants to throw everything they 
have into building something as soon as possible. That's why 
the administration pulled out of the ABM treaty prematurely, 
and that's why the administration is lurching headlong toward 
building missile interceptor silos in Alaska that have not been 
proven, cannot be fired in tests, and will provide absolutely 
no protection by 2004, notwithstanding the administration's 
numerous promises.
    On this score, I ask unanimous consent to submit for the 
record, Mr. Chairman, the transcript of a special investigative 
briefing I held on June 11th discussing how the administration 
has made these promises of protection in 2004 by ignoring the 
technology and rushing ahead into deployment.
    Mr. Shays. Without objection, so ordered.
    Mr. Tierney. Thank you.
    As I mentioned a minute ago, Mr. Miller is going to discuss 
in the second panel that history is littered with examples of 
weapons programs that were designed too quickly, that were 
deployed without sufficient testing and have suffered from 
fatal flaws, the Sergeant York gun, the Bradley fighting 
vehicle, the B-1 bomber and the C-5 cargo plane. These programs 
were rushed because of threats that were thought to be urgent 
at the time. They all unnecessarily cost American taxpayers 
billions of dollars to retroactively fix problems that should 
have been addressed earlier.
    Mr. Chairman, I will close by noting that the Pentagon 
claims reorganization is not intended to reduce oversight. Even 
though there are no cost estimates, no operational requirements 
documents, no testing plan and no ultimate architecture, the 
Pentagon argues that congressional oversight will be just as 
vigorous as it has been in the past. With all due respect, this 
subcommittee in particular has to be wary of those types of 
claims.
    As you know, the Pentagon ignored this subcommittee for 
over 8 months last year when it refused to deliver an 
unclassified report from Mr. Coyle describing in detail the 
flaws in the ground based test program. Even though a Federal 
statute required the Pentagon to deliver that report, the 
Pentagon wanted to hide those embarrassing results. It wasn't 
until 55 Members of Congress, including the ranking member and 
members of three congressional committees, wrote to Secretary 
Rumsfeld that we finally received it. Even then the Pentagon's 
official position remained that the public should be denied 
access to this report, even though its contents were completely 
unclassified.
    As a result, the Missile Defense Agency's new strategy is 
to simply classify more information. Last month, we learned of 
a directive from General Kadish ordering the classification of 
all information relating to decoys, even if general in nature.
    Mr. Coyle, who now writes from beyond Government service, 
confirmed that this action was uncalled for. This is what he 
had to say, ``It may be the end of this decade before such 
testing with real world decoys can begin. Thus the current test 
program is not giving away any secrets, nor is there any danger 
of that for years to come. The new classification policy is not 
justified by either the progress in tests so far or by the 
realism of the tests. If this secrecy is not justified by the 
progress or the realism of the tests, it can only be explained 
by the Pentagon's desire to hide problems with progress and 
realism.''
    This kind of behavior, Mr. Chairman, is what causes me to 
be skeptical of the Pentagon's motives in exempting themselves 
from longstanding acquisition rules. Thank you.
    Mr. Shays. I thank the gentlemen, and just say to him that 
the questions he raises, for our guests and also our panelists, 
we have a lot of hard working members in this committee. We 
don't have a lot that show up, and so we go over the 5-minutes. 
General Kadish, you are free to speak, obviously, more than the 
5-minutes and answer any questions that you want to address 
that you hear being raised by people here. Obviously, Mr. 
Christie and Dr. Stansberry as well.
    At this time, I will be calling on my colleague Mr. 
Schrock.
    Mr. Schrock. Thank you, Mr. Chairman.
    Mr. Shays. I would like to introduce you the same way I did 
my colleague, Mr. Tierney, the most distinguished Mr. Schrock.
    Mr. Schrock. Thank you very much. Now you've thrown me off 
c completely. [Laughter.]
    I wasn't going to make an opening statement, but I think 
I'll just make a few comments. I want to associate myself 
completely with what Mr. Putnam said.
    I heard it a few minutes ago when I came in here, we can't 
choose the threat. If we could, we wouldn't have to be here 
today and it would make life a whole lot easier. But as far as 
I'm concerned, the reality of the threat is real, the immediacy 
of the threat is very, very real. And I hear about tremendous 
costs and I understand that.
    But folks, freedom is not free. And nothing worthwhile is 
easy or cheap. This is going to be one of those areas as well.
    We were never going to get hit. We were never going to get 
attacked. But folks, we have, and no longer could we take that 
for granted. We think there are people out there who can't 
strike us, but I just read, I believe yesterday, that the 
Chinese now have a missile that could get all the way to 
Atlanta. That's pretty scary to me.
    So I just think we need to understand that if we're going 
to solve this thing, we've got to spend the money and time and 
effort it takes to get this system developed. And as far as the 
comment that DOD is trying to do away with Congress's 
oversight, I'm not sure there's any evidence of that at all. As 
far as I'm concerned, the current Secretary of Defense and the 
staff he's put together, the team he's put together, feel 
strongly about that and they're trying to do that. So I think 
that's an unfair assessment.
    So again, I thank you all for what you do. I thank you for 
being here, and I am very anxious to hear what you have to say. 
Thank you.
    Mr. Shays. Thank you. Another very active and distinguished 
member of the committee, Ms. Schakowsky, is recognized.
    Ms. Schakowsky. Thank you for that, Mr. Chairman.
    I want to thank you for this hearing and the ranking 
member, Mr. Kucinich, and also Mr. Tierney for all the work 
that he has done on this issue.
    This isn't the first hearing this committee has had on 
missile defense. In the past we have discovered deficiencies in 
just about every facet of the program's development, from 
testing or lack thereof to acquisition to oversight. Yet each 
appropriation cycle, Congress spends billions of dollars on 
this failed system. The only thing we consistently learn from 
hearings and research on this subject is how much information 
and accountability is lacking, and how much of a pipe dream 
this program is.
    The Bush administration proposed and Congress recently 
appropriated nearly $8 billion in funding for this fantasy 
based device. The United States has already spent the 
equivalent of $148 billion on research and development since 
missile defense was first proposed in the 1950's. The latest 
CBO estimates project that implementation of the Bush 
administration's missile defense concept will cost as much as 
$238 billion.
    These numbers are astonishing, considering the program's 
lack of success and even more stunning considering that the 
administration is, in my view, making it more difficult for 
Congress to monitor the program.
    Today, the GAO will present a report to the subcommittee 
outlining recommendations for a more knowledge based 
decisionmaking process at the missile defense agency in order 
to reduce risks in developing the airborne laser phase of the 
proposed defense package. I agree with the GAO's 
recommendations. In fact, many of us are quite familiar with 
them, because similar recommendations were made in Dr. Phillip 
Coyle's August 2000 report, which this subcommittee analyzed.
    Each time I attend a briefing or read the paper, there is 
always one very simple point: spending billions of dollars on a 
system that does not work and will not make us safer is 
unacceptable.
    The Bush administration holds every Government program 
aimed at social development to the strictest standards of 
accountability. If this program were in the Department of 
Housing and Urban Development or the Department of Education, 
it would be long gone. Yet when it comes to the missile defense 
system, the Bush administration is trying to evade reasonable 
and necessary standards of accountability. The Missile Defense 
Agency has yet to complete even a test and evaluation master 
plan, program implementation plan or an operational 
requirements document, as has been stated.
    In other words, the administration is spending billions of 
precious taxpayer dollars on a concept that they haven't even 
figured out how to test accurately.
    Why does the administration cloud oversight and waive 
accountability for a system that's so expensive? Why does the 
administration try to hide the development of this system from 
the Congress and the American people, who pay for it, but 
consistently tout the success of the program? Why does this 
Congress continue to appropriate billions of dollars each year 
with virtually no proof that the system can pass test scenarios 
that even slightly resemble real life situations, and with no 
proof that the technologies in question will ever defend our 
country from missile attack?
    These are the questions to which the American people 
deserve answers. I thank the witnesses for attending this 
hearing, and I hope that the efforts of the GAO are not simply 
addressed for the benefit of this hearing. We have a Government 
Accounting Office for a reason.
    I charge the Missile Defense Agency with the responsibility 
of taking the GAO recommendations seriously and also taking 
this hearing as a message from the American people that we 
deserve and demand to know how our money is being spent. In my 
opinion, if these recommendations are not implemented and if we 
fail to link funding for this concept to real, clear and 
convincing scientific facts, further investment in this program 
will be even more of a waste.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank you very much.
    We are blessed to have Mr. Gilman, former chairman of the 
International Subcommittee and full committee, and has been, 
frankly, one of the most active members of this committee. It 
is very appreciated, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I want to thank you for convening this very important 
hearing this morning to explore the state of our national 
missile defense program and its technical feasibility. The 
missile defense program has undergone a number of significant 
changes over the last year. Chief among those was the 
redesignation of the primary agency in charge of the mission, 
the Ballistic Missile Defense Organization, as the Missile 
Defense Agency.
    In addition to the name change, a major focus of missile 
defense has also shifted from concentrating on theater against 
long range issues to develop a more layered defense that 
emphasizes the various stages of a missile in-flight 
trajectory.
    Last year also saw our Nation formally withdraw from the 
Anti-Ballistic Treaty of 1972. The Bush administration believed 
that the Treaty was a cold war relic that had outlived its 
usefulness. Moreover, the Treaty was threatening to impinge 
upon near term developments and testing within the U.S. 
program.
    The President made the decision to exercise the withdrawal 
provisions within the Treaty and the administration made that 
formal announcement last December. The events of last September 
have shown that the threat of international terrorism is all 
too real. This does not, however, render invalid prior concerns 
about the proliferation of ballistic missile technology. 
Currently, our Nation has no defense against such a missile 
being launched deliberately or by any rogue nation or state 
accidentally by a nation with such technology.
    Critics of the missile defense system argue that the 
chances of such a launch are remote. In response, I content 
that last year at this time, it seemed equally farfetched that 
someone could organize a concentrated efforts to fly airplanes 
into large buildings. Defending against ballistic missiles will 
never be easy nor inexpensive. But such difficulties in defense 
should not be any excuse for inaction.
    Once again, Mr. Chairman, we thank you for holding this 
important hearing and we look forward to hearing from today's 
impressive witnesses. Thank you, Mr. Chairman.
    Mr. Shays. I thank you very much.
    At this time we recognize our last speaker, and also a very 
valued member of the committee, Representative Allen.
    Mr. Allen. Thank you, Mr. Chairman. I'll be brief.
    Back in Maine, when I try to explain how Congress works, I 
describe this subcommittee as operating the way people think 
Congress works, that is, bringing people in and having a full 
blown discussion so we can have good information and an 
exchange of views. I wish more committees and subcommittees 
operated this way.
    I'll be very brief. I have been, as people know, concerned 
about the transformation of the missile defense program into 
one that where it is difficult to get costs, difficult to 
evaluate progress, difficult to understand what's going on, 
because all the missions have been lumped together.
    I will save my comments and questions primarily, but I did 
want to react to one comment by Congressman Schrock. It's 
always been my understanding that the missile defense program 
that the United States is developing is not designed to shoot 
down missiles from either China or Russia or Britain or France, 
for that matter, and that it is designed to deal only with the 
threat from rogue states. If we were going to deal with the 
Chinese and Russian threat, we would probably have to double 
the current budget.
    If I'm wrong in that assumption, I would appreciate it if 
the witnesses would react to that today. Because it's one 
example of, I would say, the importance that we keep focused on 
what it is we are trying to do, what the nature of the threat 
is, and making sure that we are designing and developing a 
system that is responsive to the particular threat that is 
perceived out there. That's the ground of my concern for the 
direction the agency is headed in now.
    Mr. Chairman, thank you again for holding this hearing. I'm 
pleased to be here.
    Mr. Shays. I thank the gentleman.
    Before swearing in the witnesses, I just want to thank them 
for their patience in listening to the comments made by 
Members. I think it will help everyone respond, because we 
really know what's on the table. I thank all of our Members for 
placing on the table their concerns and comments of support.
    But I do want to particularly say, it's been the first 
hearing this subcommittee has had since Mr. Gilman announced 
that he would not be running again. He is the first Member I 
ever met, he has been one of the most gracious Members to serve 
this chamber, one of the most knowledgeable. And when some of 
the newer Members are not attending this subcommittee, he 
attends and participates as if he were newly elected. I just 
appreciate his graciousness, his intelligence, his lack of 
partisanship. You are to me a real hero and a person I would 
love to emulate if I could.
    Mr. Gilman. Thank you, Mr. Chairman, for your kind words.
    Mr. Shays. And I know they're shared by all the Members. So 
we won't spend more time talking about you now, but we will 
later.
    I would like to recognize our first panel. We have General 
Ronald T. Kadish, U.S. Air Force, Director, Missile Defense 
Agency, Department of Defense. We also have testifying Mr. 
Thomas Christie, Director, Office of Test and Evaluation at 
DOD. And we have Kent G. Stansberry, Deputy Director, Missile 
Warfare, Office of the Secretary of Defense, Department of 
Defense.
    Gentlemen, as you know, we swear in our witnesses. I invite 
you to stand and we will swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    If I could just do the housekeeping, that enables us to 
begin. I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purposes. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record and 
without objection, so ordered.
    Gentlemen, what we will do with the clock, we do the 5-
minutes, we roll it over. Frankly, given all the comments that 
were made by the Members here, if you need to go a little 
longer, so be it. This is a very important hearing to us. We 
don't want you to feel that you're not able to put everything 
you need to put on the record on the record.
    We'll start with you, General.

  STATEMENTS OF LIEUTENANT GENERAL RONALD T. KADISH, U.S. AIR 
FORCE, DIRECTOR, MISSILE DEFENSE AGENCY, DEPARTMENT OF DEFENSE; 
THOMAS P. CHRISTIE, DIRECTOR, OPERATIONAL TEST AND EVALUATION, 
DEPARTMENT OF DEFENSE; AND KENT G. STANSBERRY, DEPUTY DIRECTOR, 
      MISSILE WARFARE FOR THE UNDER SECRETARY OF DEFENSE 
            (ACQUISITION, TECHNOLOGY AND LOGISTICS)

    General Kadish. Good morning, Mr. Chairman and members of 
the committee. Thanks for inviting me to establish and testify 
on behalf of the Missile Defense Agency and reorganization of 
that program.
    I want to address briefly just three aspects of our 
program: management, requirements and testing. Our goal in 
developing missile defense is to be effective against all 
ranges of ballistic missiles. It is a national decision as to 
where and when we deploy our capabilities. But in developing 
them, we face the complex task of integrating many elements, 
because the flight physics involved, the variety of missile 
speeds, trajectories and environments through which the 
missiles travel preclude our having one defensive technology or 
approach that can do it all.
    In reforming our management approach, we looked at what 
made current and past complex national programs successful and 
took good counsel of what our internal and external critics had 
to say. Our review has led to a management approach that meets 
the challenges of the unprecedented technology needed for 
effective missile defense. I believe this management approach 
is sound and will lead to successful development and deployment 
of such an effective missile defense.
    Now, why did we change our approach? There are two major 
reasons. First, to reduce the cycle time for making key 
decisions. Our revised structure provides for more direct, 
focused, frequent and comprehensive decisionmaking. It is 
designed to attack head-on the tough problems of systems-of-
systems integration, which is so key to the success of such a 
complex undertaking as missile defense.
    The second reason we have changed our processes is that the 
existing Departmental procedures were designed to satisfy the 
needs of single service acquisition. Missile defense is 
different. In missile defense, we have three military 
departments, the joint staff and the combatant commanders all 
deeply involved. That is why the Missile Defense Agency was 
created in the first place, to pull all these strands together, 
regardless of whether the basing mode of any single element was 
on the ground, at sea, in the air, or in space, to create a 
single layered integrated missile defense system.
    Managing the missile defense program under these 
circumstances requires a new approach, one that builds on the 
best practices we know how to implement. I believe the 
Secretary of Defense's direction provides a foundation for that 
approach, and we are making good progress in executing that 
direction.
    Our approach to the problems of the traditional 
requirements process is capability based acquisition. 
Capability based acquisition simply allows us to design 
flexible systems that can accommodate new technologies and 
concepts, while fielding demonstrated capabilities more quickly 
as they mature.
    This ability to be flexible during development allows us to 
reduce acquisition cycle time, schedule risks and costs risks. 
In this way we can find the right balance between what is 
needed and what is possible at any point in the acquisition 
path.
    The significant advantage is that capabilities based 
acquisition promotes a potential early deployment of missile 
defense capability that has military utility. Even if that 
capability is limited, it fills a serious gap in our current 
national security posture. That is because today, our Nation 
has no defense against long range missiles and only very 
limited defense against short range missiles.
    Now, as I look back, it has been a very busy year, 
highlighted by a series of important events just a month ago. 
In the space of 3 days, we had a successful intercept by a 
standard missile three interceptor launched from an Aegis 
cruiser, the United States formally withdrew from the ABM 
Treaty, and we broke ground on the start of an expanded 
ballistic missile system test bed at Fort Greeley, AK. These 
events underscore the fact that we are truly at a crossroads in 
the development of missile defense. Our pace has picked up, and 
it is important that we sustain our momentum.
    A robust and progressive test and evaluation program is 
absolutely necessary to make sure our technologies are mature 
enough. Our tests have shown that we have the technology in 
hand to hit a missile. We have done it in space and in the 
atmosphere from land and from the sea. Now we have to move to 
the next two important stages of testing, to show that we can 
do that reliably and to show that we can do it against 
countermeasures.
    The most visible evidence of our progress is success in 
flight tests. At this point, if you will allow me, I would like 
to show a video score card of the tests that we have conducted 
in the last 2 years. If you could put the video on, please.
    [Video shown.]
    General Kadish. The ballistic missile defense system has 
some major tests in the atmosphere and in outer space. We are 
looking at layered defenses.
    What that means is that we have blue space, midcourse and 
terminal defense systems that handle long range, medium range 
and short range threats. This is designed to make it much more 
complicated for an adversary to punch through a layered 
defense.
    Now, Patriot-3 is a terminal defense system against short 
range missile. The intercept occurs in the atmosphere. What you 
will see is a Patriot-3 launch. You see it maneuver into 
position to very accurately hit the incoming missile. As it 
approaches the missile, you will see the rockets firing very 
accurately. No explosives on that missile, it is pure hit to 
kill energy.
    Now we move up into the atmosphere, into the trans-
atmosphere and the edge of outer space with the THAAD system. 
This is a terminal system against longer range missiles and 
medium range missiles. Here is the launch of the target at 
White Sands Missile Range and two views of the interceptor 
launching. The missile actually has to do an energy dissipation 
maneuver to stay in range.
    This interception occurred in outer space. You can see the 
maneuvering vehicle, kill vehicle heading toward the target and 
a slow motion intercept. And another view of seeing that real 
time. And another perspective of the intercept from the ground.
    The next thing you will see is what the seeker on that 
interceptor actually saw microseconds prior to intercept. It 
gives you an idea of the accuracy with which these early tests 
have proven we can actually do hit to kill with.
    Now we have a booster test. This is a booster test of the 
longer range system, Midcourse, the ground based missile 
defense system. Unfortunately, this test was not successful. It 
was not an intercept defense test, it was a test of the booster 
that we intend to use. For those of us in the program, this was 
very disconcerting to watch; 15 seconds into the flight, it 
encountered a failure and basically self-destructed.
    We know how to fix this problem and we intend to fix it.
    We had, however, some remarkable success in our ground 
based program, especially over the past year. I would like to 
show two videos of this particular set of testing. The first 
one, they are basically all the same. Launched out at 
Vandenberg, headed toward the South Pacific. It will rise to 
meet that incoming warhead somewhere in the neighborhood of 240 
kilometers in altitude in outer space.
    This is what the seeker saw as it came in at very high 
speed, closing velocity 15,000 miles per hour. We actually very 
accurately destroyed that target. This is another view of it 
coming up. This one was done March 15th of this year.
    Again, same test, to make sure we can do it repeatedly. 
Again the target launched out of Vandenberg, and the 
interceptor at approximately 4,500 miles away. And you'll see a 
different view of both the intercept and the interceptor 
prototype that we're using.
    These tests are extremely complex. We have many sensors and 
we have much data gathering going on. This is an infrared view 
of the actual intercept. The next view you will see both a 
visual and radar tracking data on that intercept.
    The last view I would have to show you is what we did from 
the sea with a standard missile against midcourse intercepts of 
medium range ballistic missiles. This test occurred at the 
Pacific Missile Test Range located in Hawaii, with a launch of 
a target off of Hawaii, about 500 kilometers downrange. This is 
a view of the cruiser and the launch of the standard missile 
three to intercept that target.
    Here is another view, it's very fast. This missile 
intercept took place in outer space. This is one view of it 
with a chase plane. And this is another view from the seeker, 
what the seeker actually saw microseconds prior to impact.
    Now, we learn from our failures. And we advance with our 
successes. If every test were a success, the envelope probably 
is not being pushed hard enough. On the other hand, if we have 
too many failures, we're obviously not doing something right. 
Our goal is success, and we are achieving that as our testing 
base and complexity pick up.
    Over the past year, in tests against long range missile 
targets by the ground based midcourse defense system, the 
interceptor record is three for three. But the full record is 
four for six. Early tests focused on technology development 
demonstration and integration. Now we're advancing step by step 
to the operation of more realistic and more demanding 
scenarios.
    Our sea based interceptor tests against medium range target 
missiles has gotten off to a good start. We are two for two in 
intercepts. These two successes move us along to the next stage 
of development, to capitalize on the advantages they have 
brought to the schedule.
    Our Patriot Advanced Capability-3, or PAC-3, intercept 
record against shorter range ballistic missile targets is 7 for 
10 and 2 for 4 over the past year in tougher operational tests. 
The mixed results from these tests have shown we still have a 
little bit more work to do.
    Our momentum is continuing. To mitigate the risk of flight 
test failures, we are aggressively pursuing a wide range of 
ground tests across the program. Over the next 6 months, we 
have some additional 15 significant ground tests scheduled. 
Additionally, we have some 20 flight tests scheduled, including 
several phenomenology flight tests.
    As we move into a new era of testing, one no longer 
constrained by the ABM Treaty, we can now test new concepts of 
missile defense that may lead to a new and better way to 
accomplish the BMD mission. This will of course change what and 
how we test, so as to find the best role and mix of components 
and elements to provide the best overall system.
    Mr. Chairman, the missile defense program is at a 
crossroads. With the continued support of Congress, we can keep 
up with the aggressive pace of the momentum of our development 
effort and set the stage for the successful deployment of 
missile defenses against all ranges of threats.
    I apologize for running over, but I thought this was a 
complete view of our program.
    [The prepared statement of General Kadish follows:]
    [GRAPHIC] [TIFF OMITTED] 81892.003
    
    [GRAPHIC] [TIFF OMITTED] 81892.004
    
    [GRAPHIC] [TIFF OMITTED] 81892.005
    
    [GRAPHIC] [TIFF OMITTED] 81892.006
    
    [GRAPHIC] [TIFF OMITTED] 81892.007
    
    [GRAPHIC] [TIFF OMITTED] 81892.008
    
    [GRAPHIC] [TIFF OMITTED] 81892.009
    
    [GRAPHIC] [TIFF OMITTED] 81892.010
    
    [GRAPHIC] [TIFF OMITTED] 81892.011
    
    [GRAPHIC] [TIFF OMITTED] 81892.012
    
    [GRAPHIC] [TIFF OMITTED] 81892.013
    
    [GRAPHIC] [TIFF OMITTED] 81892.014
    
    [GRAPHIC] [TIFF OMITTED] 81892.015
    
    Mr. Shays. No apology necessary. We would have been 
disappointed if you hadn't run over.
    At this time we will go to you, Mr. Christie.
    Mr. Christie. I also thank you, Mr. Chairman and members of 
the committee, for this opportunity to appear before you and 
discuss the involvement of my office, that of the Director of 
Operational Testing and Evaluation, in this missile defense 
testing.
    As General Kadish has described on several occasions, the 
ballistic missile defense system will be developed and acquired 
using a new strategy that incorporates a phased introduction of 
missile defense capabilities based on evolving technology. 
Capability based requirements, if that's what you want to call 
them, are replacing traditional operational requirements and 
research and development will focus on maturing technologies 
with operational potential before transitioning them to formal 
acquisition programs.
    My responsibilities in this process include monitoring the 
demonstration of those critical technologies, providing my 
senior leadership with advice on missile defense agency goals 
and plans, and assessing the adequacy and sufficiency of the 
ballistic missile defense system test program. Traditional 
operational test oversight will apply once these capabilities 
have transitioned to the services for acquisition.
    Statute requires that I review and approve test plans for 
both operational and live fire testing, as well as oversee and 
evaluate these test programs. Live fire testing in particular 
requires early involvement in the systems development phase. 
Aside from live fire testing, statute limits my role in 
developmental testing to that of an advisor. In response to the 
fiscal year 2002 Defense Authorization Act, I will provide a 
report to Congress each year by February 15th detailing my 
assessment of the Missile Defense Agency's testing.
    There is proposed fiscal year 2003 language which would 
further require that I provide operational assessments for 
ground based missile midcourse defense, sea based missile 
defense, theater high altitude aerial defense and air boat 
based booster systems.
    As I recently testified before the House Armed Services 
Subcommittees on Military Research and Development and Military 
Procurement, I will satisfy the intent of that language under 
the current reporting requirements. Operational assessments of 
systems in development are essentially technology assessments 
with an eye toward operational suitability and effectiveness.
    Through my role as the monitor of technology demonstrations 
and advisor to the director of the Missile Defense Agency, and 
other senior Department officials, I will provide assessments 
of evolving technologies on an ongoing basis. My staff and I 
are being afforded access to important programmatic plans. For 
example, we were recently briefed in some detail on the ground 
midcourse defense system test bed and other missile defense 
range and resource plans and requirements.
    While it is premature to assess the adequacy of individual 
initiatives, the Missile Defense Agency plans certainly seem at 
this point to be headed in the right direction. When fully 
implemented, the test bed will mitigate many of the existing 
test limitations and restrictions that prevented operationally 
realistic flight testing identified during planning for the 
former national missile defense program. Testing will gradually 
increase in complexity and tactical realism as this test bed 
matures. Furthermore, planning for preflight tests, modeling 
and simulation and other specialty ground testing will continue 
to mitigate flight test risks.
    The Missile Defense Agency is also taking the initiative to 
create a combined task force approach for ground midcourse 
defense that has proven successful in other military systems 
development. The integration of contractor and Government 
developmental and independent operational testers has created a 
team that is working together now to plan, conduct and assess 
the results of major ground midcourse defense testing. This 
approach permits earlier operational testers' involvement while 
still focusing on the examination of technical and design 
issues, as the system matures through research and development.
    I will rely on this team as the primary information source 
in preparing my assessment, which will support senior executive 
counsel and defense acquisition board transition and deployment 
decisions.
    In order to effectively and efficiently meet these new as 
well as traditional reporting responsibilities, I do require 
extensive access into the Missile Defense Agency's activities. 
This will be accomplished at three levels. First, through the 
missile defense support group that Secretary Aldridge has 
established. Second, through regular communications with the 
Missile Defense Agency. And third, through my staff's direct 
involvement at the program and element level.
    General Kadish and I both testified as recently as 2 weeks 
ago that DOT&E is being provided the necessary access to 
Missile Defense Agency programs. For example, in the Patriot 
Advanced Capability-3 program, which is in its operational 
testing phase, we are involved on a daily basis. Due to the 
reduced level of activity of the other programs during the 
restructuring that took place late last year and earlier this 
year, we are just now increasing our involvement with them. We 
are fast approaching the level of access and involvement that I 
deem necessary. General Kadish and I are both committed to 
making it the best way of working that it can be.
    Mr. Chairman, I thank you for the opportunity to make these 
remarks.
    [The prepared statement of Mr. Christie follows:]
    [GRAPHIC] [TIFF OMITTED] 81892.016
    
    [GRAPHIC] [TIFF OMITTED] 81892.017
    
    [GRAPHIC] [TIFF OMITTED] 81892.018
    
    [GRAPHIC] [TIFF OMITTED] 81892.019
    
    Mr. Shays. Thank you.
    Dr. Stansberry.
    Mr. Stansberry. Good morning, Mr. Chairman and members of 
the committee. Thank you for the opportunity to appear here 
today. I plan to address the new management structure and the 
more flexible oversight process adopted by the Department of 
Defense for its missile defense programs.
    On January 2 of this year, Secretary Rumsfeld issued 
direction for the missile defense program. His stated 
objectives included the establishment of a single program to 
develop an integrated ballistic missile defense system under 
the authority of a single organization. He directed a 
capability based requirements process and streamlined oversight 
to facilitate the earliest possible deployment of missile 
defense capabilities. These changes are necessary due to the 
magnitude of the BMD program and the high priority placed on it 
by the President.
    The Secretary will look to the DOD Senior Executive Council 
[SEC], for oversight and recommendations for decisionmaking in 
this area. The Senior Executive Council is chaired by Deputy 
Secretary Wolfowitz and includes the Service Secretaries and 
the Under Secretary of Defense for Acquisition, Technology and 
Logistics.
    In response to the Secretary's direction of January 2nd, 
the Under Secretary for Acquisition, Technology and Logistics, 
Mr. Aldridge, issued implementation guidance. He directed the 
Director, Missile Defense Agency, General Kadish, to plan and 
execute a single missile defense program structured to 
integrate the work and enable capability trades across the 
different elements of the Ballistic Missile Defense System, and 
to facilitate decisive action in response to program events.
    This new single program has the same reporting requirements 
to OSD and to Congress that all other DOD programs have. The 
Director, Missile Defense Agency will have the authority to 
manage the acquisition strategy, make program commitments to 
award contracts, to make affordability tradeoffs and to 
exercise milestone decision authority up to but not including 
milestone C, which is the beginning of the production and 
deployment phase.
    When an individual element of the Ballistic Missile Defense 
System progresses to the point of demonstrating militarily 
useful capability, the Director of Missile Defense Agency will 
recommend that the Senior Executive Council consider it for 
transition to production and deployment. This transition will 
create an acquisition program in its own right and activate the 
management, oversight and reporting processes used for 
traditional defense acquisition programs, leading to a 
milestone C production decision by the defense acquisition 
executive advised by the Defense Acquisition Board. Then the 
designated military service will manage the program following 
standard acquisition processes and reporting.
    To advise the Director of the Missile Defense Agency on 
management of his program and to aid the Senior Executive 
Council in decisionmaking on missile defense, a Missile Defense 
Support Group representing 13 selected staffs within the 
Department was formed. The Missile Defense Support Group 
consists of senior experienced individuals who provide useful 
insights and recommendations on policy, operations, acquisition 
and resource matters that affect the Ballistic Missile Defense 
System.
    Over the past 4 months since the Missile Defense Support 
Group was established, it has met 10 times. This is a 
significant increase in the commitment of senior leaders of the 
Department compared to other DOD programs.
    The Department is making these changes in management and 
oversight in response to the high priority for missile defense 
articulated by President Bush. We believe the changes will 
allow missile defenses to be developed and deployed in a much 
more efficient manner than otherwise. Congress has the same 
visibility in the missile defense program that it has with 
other DOD programs.
    In this context, some of the classical metrics of progress 
will be affected by our approach to combine all research, 
development, testing and evaluation for missile defense into a 
single program that will be separate from programs for 
production and deployment. To ensure that Congress has a full 
understanding of the program, we are committed, committed to 
provide necessary details of how the program will be structured 
and managed.
    The Missile Defense Agency has already conducted over 40 
hours of briefings on the Ballistic Missile Defense System to 
congressional staff since the Missile Defense Agency was 
created, and will continue to provide Congress with detailed 
information to satisfy congressional oversight 
responsibilities.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions that you or the committee may have.
    [The prepared statement of Mr. Stansberry follows:]
    [GRAPHIC] [TIFF OMITTED] 81892.020
    
    [GRAPHIC] [TIFF OMITTED] 81892.021
    
    [GRAPHIC] [TIFF OMITTED] 81892.022
    
    [GRAPHIC] [TIFF OMITTED] 81892.023
    
    [GRAPHIC] [TIFF OMITTED] 81892.024
    
    [GRAPHIC] [TIFF OMITTED] 81892.025
    
    [GRAPHIC] [TIFF OMITTED] 81892.026
    
    Mr. Shays. Thank you.
    This is what we're going to do. We're going to do 5 minute 
questions to start; 5 minute questions aren't my favorite, 
because frankly you can't really get into great depth. I'll 
extend time if the witness is giving a longer answer. So I'm 
telling this to the Members, you don't need to interrupt the 
witness, we'll just extend time. So this way you get a full 
answer, and if we go 6 or 7, that's all right. Then we'll do a 
second round.
    We are not going to leave this panel until we have answered 
the questions that need to be asked. So I don't want any Member 
to say, if we had another round we would have narrowed this 
down better. So we're going to go three rounds or four if we 
have to. Actually, the second round may be a 10-minute round.
    Let me call on you, Mr. Gilman, to start.
    Mr. Gilman. Thank you, Mr. Chairman.
    General Kadish, how confident are you that the missile 
defense system under development be able to distinguish between 
real warheads from decoys?
    General Kadish. I'm becoming increasingly confident that 
that problem in the midcourse especially can be solved, and 
would be greatly complicated for our adversary by the 
additional layers of defense, especially the boost phase. So 
longer term, the evidence is building that we can handle this 
problem. But we're not there yet.
    Mr. Gilman. But you are working now. And General Kadish, 
what types of international cooperative programs were 
prohibited under the Anti-Ballistic Missile Treaty, and what 
are the technical benefits of working with our allies on 
missile defense?
    General Kadish. Sir, although we had some very active 
programs at the shorter range missile problem with the Japanese 
and the Italians and the Germans for instance, and certainly 
the Israelis, the Treaty specifically prohibited us to share 
what we call blueprint data against longer range missile with 
our allies. So now that the Treaty is no longer in force, we 
are able to do that should we so desire.
    Mr. Gilman. So we're working with our allies now?
    General Kadish. We are entering into discussions with our 
allies to see what might be the possibility in the cooperative 
area.
    Mr. Gilman. I note that GAO has made a recommendation that 
the agency use its opportunity to make its acquisition progress 
more knowledge based by establishing knowledge based decision 
points at key junctures. That would give the agency a better 
position to decide whether to invest in the next phase. Are you 
following that GAO recommendation?
    General Kadish. For all intents and purposes, I believe we 
are. We have, for instance, structured the program such that on 
a yearly basis, at a minimum, the senior departmental 
leadership will look at our progress to date and then make 
decisions on the program, both in the RDT&E area and decisions 
to go forward based on that progress. So that in a larger 
sense, I believe, if I read the GAO's approach, meets the 
intent of what they're suggesting.
    The whole program is structured so that we proceed based on 
our progress, not based on a schedule. And that's key to the 
event based approach that we're taking.
    Mr. Gilman. One further question, General. GAO said in 
their July 12th report they recommended the Director of the 
Missile Defense Agency not only establish decision points to 
separate technology development from system integration, system 
integration from system demonstration, and system demonstration 
from production, but also establish knowledge based criteria 
that would be used to determine whether additional investments 
should be made in the airborne laser program.
    Are you following that recommendation to some extent?
    General Kadish. Yes. I believe we are. We have basically 
three points that we are looking at for all our program 
elements. One is, the first point would be to enter into RDT&E. 
Second point is to transition from RDT&E into an early initial 
production. Then the third point is, as Dr. Stansberry pointed 
out, the full product transition to the services.
    Each one of those points, we certainly will need criteria 
to proceed. And in the case of the ABL, I'm looking at specific 
criteria to use internal to MDA to support those types of 
decisions, not only at that decision point but prior to it.
    So the baseline answer to the question would be, we're 
certainly proceeding in the direction that the GAO suggests. 
Maybe not exactly in the detail that they suggest at this 
point, because we're not quite there yet in terms of the 
schedules.
    Mr. Gilman. Thank you, General. We wish you success in all 
your endeavors.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Gilman.
    Mr. Kucinich, you have the floor.
    Mr. Kucinich. Thank you very much, Mr. Chairman, members of 
the committee, General, welcome.
    You showed us a very interesting video which appears to 
have been a success. I would just like some answers to the 
following questions so we could move this along. If a single 
answer of yes or no would suffice, that would be fine.
    On those particular tests, did the target have a homing 
beacon or GPS technology?
    General Kadish. The target had the range safety 
requirements to have a transponder on the target so we knew 
where it was going.
    Mr. Kucinich. So the answer is yes.
    General Kadish. And we had a situation where the 
interceptor did not rely on those types of data for the 
intercept.
    Mr. Kucinich. Did the defense system then have advance 
information?
    General Kadish. Absolutely. We have advance information on 
all our early RDT&E----
    Mr. Kucinich. So the system knew the speed of the incoming 
missile?
    General Kadish. Absolutely. You need to have the truth data 
to compare it to.
    Mr. Kucinich. It knew the trajectory? Did it know the 
launch time?
    General Kadish. Knew the launch time exactly.
    Mr. Kucinich. Did it know the launch location?
    [Witness nods in the affirmative.]
    Mr. Shays. Let me just say, the nodding of the head doesn't 
get us what we need for the transcriber. We just need a yes or 
a no. And you will be allowed to elaborate, just to clarify, 
and the gentleman will be given more time.
    General Kadish. OK.
    Mr. Kucinich. Thank you, General. Thank you, Mr. Chairman.
    Did it know the trajectory?
    General Kadish. These are early developmental tests, 
Congressman. We have a very stylized approach. They are very 
complex. We probably have anywhere from 15 to 20 specific 
sensor platforms looking at this. And we want to compare what 
these sensor platforms saw versus what actually happened.
    Mr. Kucinich. Thank you, General. Did it know the 
trajectory?
    General Kadish. Yes.
    Mr. Kucinich. Did it know the launch time?
    General Kadish. Yes.
    Mr. Kucinich. Did it know the launch location?
    General Kadish. Yes.
    Mr. Kucinich. Did it have any advanced information about 
the decoy?
    General Kadish. We have, within the mechanization of the 
system, what an intelligence activity would have, yes.
    Mr. Kucinich. There was a global positioning system 
transmitter in the first NMD intercept test. It provided the 
target location to the interceptor, correct?
    General Kadish. It provided the target location to the 
people running the test.
    Mr. Kucinich. But it provided it to the interceptor booster 
to allow it to dispense the EKV in the correct place, did it 
not?
    General Kadish. We have GPS, global positioning, to aid our 
test infrastructure. We don't use that information to do the 
integrative part of the test, however.
    Mr. Kucinich. Did or did not the test use anti-simulation 
or attempt to disguise the signature of the warhead in any way?
    General Kadish. The decoys that we used are a class of 
decoys. They do not exactly replicate the warhead that was in 
the test. But that's for advanced data gathering for later 
tests.
    Mr. Kucinich. The test then was not one of discrimination, 
since it relied on the defense knowing in advance that the re-
entry vehicle would be the object of the smallest infrared 
signal, isn't that correct?
    General Kadish. The tests were designed to prove hit to 
kill, not to do counterdevelopment.
    Mr. Kucinich. In a real attack, the defense would not know 
in any detail what the warhead would look like, is that 
correct?
    General Kadish. I would not say that.
    Mr. Kucinich. And the test, instead, wasn't this really a 
test of how sensitive the sensors are, and of the algorithms 
used by the NMD system and of the kill vehicle's ability to 
home in and hit a target?
    General Kadish. That's correct.
    Mr. Kucinich. And while it's necessary to test algorithms, 
that's not the same as testing the discrimination ability of 
the kill vehicle, is it?
    General Kadish. Well, it's an early look at what it can do. 
But it's not as robust as what we intend to do or what we need 
to do.
    Mr. Kucinich. But is the testing of algorithms, is that the 
same as testing the discrimination ability of the kill vehicle?
    General Kadish. Yes.
    Mr. Kucinich. It is the same?
    General Kadish. The algorithms determine, we might want to 
have a little tutorial on what the algorithm really is. But it 
is the mechanism with which the system determines what the 
target is.
    Mr. Kucinich. But it's not the same. When you test an 
algorithm, it's not the same as testing the discrimination 
ability of a kill vehicle.
    General Kadish. Actually, I'd rather take that question for 
the record. It's a lot more complicated than you suggest.
    The algorithms form the basis for the knowledge of the kill 
vehicle to do its job. So that's how you discriminate. You have 
the sensor data, the raw data from the sensor being worked on 
by algorithms that comes out with an answer.
    Mr. Kucinich. But when you're testing algorithms, you know, 
in one part of this first test, you were testing algorithms, 
you weren't really testing the discrimination ability of a kill 
vehicle.
    General Kadish. Can I take that for the record? It's a lot 
more complicated than you suggest.
    Mr. Kucinich. OK, then, let me just conclude with this, Mr. 
Chairman, because my 5 minutes have expired. I think it's very 
helpful to, when you come before a congressional committee and 
you put these videos up, which show interceptors homing in on a 
target, I think it's very useful for our committee to qualify 
what we're seeing. We need you to do that when you're showing 
the video. Thank you.
    Mr. Shays. I thank the gentleman.
    General Kadish. If I could just comment.
    Mr. Shays. Sure. Definitely, you have the floor.
    General Kadish. There is no way, the intent of those videos 
was to in no way misrepresent our testing in any way, shape or 
form. It was only intended to show that we've answered the 
first question of three, as I stated in my testimony.
    Mr. Kucinich. If there is anybody in this room who heard 
the General qualify what we saw when we were seeing it, raise 
your hand, because I missed it, and I apologize if he said it.
    Mr. Shays. Let me just say this to the gentleman, if I 
could, Mr. Kucinich. We intend to fully vett this whole issue. 
There are things that one may want to criticize General Kadish 
on, but I don't think he's attempting to suggest that it goes 
beyond what we saw.
    Mr. Kucinich. Would the gentleman yield?
    Mr. Shays. I'd be happy to.
    Mr. Kucinich. That's fine, Mr. Chairman, but we have a room 
full of people here who were shown intercept tests. And it's 
important to evaluate them in the context in which we're seeing 
it. We can't do that unless we're given qualifying information 
about what we're seeing, that's all.
    Mr. Shays. And let me just say to you that the only people 
that matter, frankly, aren't our guests, but the members of the 
committee. I think the General knew that we would fully 
question on this issue. I am not pressing him for time, but 
there are probably a lot of other things he could have said to 
qualify that video.
    Mr. Kucinich. Mr. Chairman, with the greatest respect, this 
whole discussion centers around the reliability of the tests. 
And if we're given information, and watching videos, which 
changes the context of this, it's important, I think, for us to 
be given information that would qualify what we're seeing. And 
we weren't given that. So I just wanted to make that a matter 
of record.
    Mr. Shays. OK. And I'll use my prerogative to have the last 
word, just to say that we are fully going to allow you and the 
other Members to ask any question that has been shown. We are 
not going to let this panel leave before we think we have made 
sure that all sides and elements of the question are aired. 
That's just my point.
    Mr. Putnam, you have the floor.
    Mr. Putnam. Thank you, Mr. Chairman.
    General Kadish, good morning. I was probably in high school 
physics more recently than anyone else in this panel, but help 
me out a little bit here. [Laughter.]
    The target vehicles in the videos that you showed earlier 
in the hearing, how fast were they traveling?
    General Kadish. The closing velocity was about 4.5 miles 
per second. I don't know the exact speed of each one of the 
objects, but their closing velocity was of that magnitude.
    Mr. Putnam. And how far apart in distance was the target 
launch and the interceptor launch?
    General Kadish. About 4,500 miles.
    Mr. Putnam. So we intercepted a target traveling 4.5 miles 
per second, that was launched 4,500 miles away successful four 
of six times?
    General Kadish. That's correct.
    Mr. Putnam. Does that happen routinely?
    General Kadish. Not to my knowledge.
    Mr. Putnam. Is this a common occurrence in military 
research and design?
    General Kadish. No, sir. We had some high profile failures 
in our attempts to do that. You might recall the first test was 
successful, but the next two failed, and we had some work to do 
to make it happen. The idea that we could actually do hit to 
kill in the atmosphere, in the trans-atmosphere, in outer 
space, more than hitting a bullet where the bullet is I think 
pretty proven, and not a regular course in the history of these 
types of weapons.
    Mr. Putnam. Thank you. Isn't it also true that in cases 
where you have a failed test, there is success in the sense 
that the systems continue to test and monitor and provide data 
on what failed and which portion, boost, midcourse and 
terminal, and be able to correct those mistakes as a result of 
data that comes from the failure?
    General Kadish. That's absolutely true and critical to our 
whole program. We have spent a lot of money trying to know what 
we call truth is, where the warhead actually was versus where 
it was supposed to be and those types of things. So that's a 
very important part of our test. And, however, it introduces 
artificialities that an operational test would not necessarily 
require.
    Mr. Putnam. The other Members have quite correctly pointed 
out other examples of weapons systems that were very expensive 
that turned out never to be successful, never to be deployed. 
Is it fair to draw a parallel between your program and the 
space program, where there were very expensive, high profile 
failures leading up to the ultimate success and the ultimate 
deployment of sending men safely and returning them back home, 
to space?
    General Kadish. I think we certainly have looked at many 
national programs in the past to come up and looked at how we 
can improve our management structure. I think it is a fair 
comparison that the technology regime that we're working in is 
unprecedented, and equivalent to some of the things we did in 
the past like the Apollo program and Gemini and that type of 
thing.
    As you suggest, all our efforts along those lines had their 
failures and their successes. But ultimately, when we 
persevered, we were successful in the outcome.
    Mr. Putnam. In terms of the different approaches, we talked 
about space based, we talked about sea based, land based, which 
of those platforms, in your opinion, and based on the current 
research, offers the greatest success with the soonest 
practicable deployability? Which one could be ready first and 
be the first line of what would be a successive wave of 
protections of this layered defense against missile threat?
    General Kadish. Congressman, it depends on what range of 
missile you're talking about. For instance, against short range 
missiles, Patriot-3 is being produced and fielded in very 
limited quantities today. So that's the leading edge of the 
short range missiles.
    When you go into the intermediate range, and medium range 
missiles, then the standard missile 3 Aegis, because we're two 
for two, and moving that program as rapidly as possible, is a 
leading candidate with the THAAD program, adding a ground based 
element to this hopefully soon after that.
    Against long range missiles, our ground based missile 
defense system is the leading candidate, because we have tested 
it six times at this point.
    So again, it depends on the range of the missile. It is 
important to understand that there is no one solution to the 
problem of missile defense, given the physics problem that we 
face. So a layered defense against all range of missiles is 
going to include an awful lot of those elements, in my view, to 
get the job done adequately.
    Mr. Putnam. Thank you, and I look forward to the next 
round.
    Mr. Shays. At this time the Chair would recognize Mr. 
Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    General, let me reiterate some of the concerns that we have 
here. The previous system that we had allowed Congress some 
specific benchmarks on which to judge how the program was 
going. Under this new proposal, it doesn't appear that there is 
any way that Congress is going to be able to determine whether 
the program is over budget, because there are no cost 
projections. There is no way to determine an appropriate level 
of funding, because unlike other major weapons development 
programs, there is no final goal to which the program is 
striving. There is also no way for Congress to gauge the 
appropriate pace of the program. It can't determine whether 
progress is slow, because there are no dates by which 
requirements must be met.
    In fact, it looks like there are no requirements at all. I 
just want to quote to you what the Congressional Research 
Service described in the lack of oversight. It said, a major 
consequence of the administration's proposed evolutionary 
acquisition strategy is that the missile defense program would 
not feature the well defined phases and milestones of the 
traditional Department of Defense acquisition system. Another 
consequence already reflected in the Department of Defense 
testimony is that the Missile Defense Agency cannot provide 
Congress with a description of its final missile defense 
architecture, the capabilities of any near or longer term 
system, the specific dates by which most elements of the 
emerging architecture are to be tested and deployed, an 
estimate of the eventual total cost of the missile defense 
program, or estimates of the amounts of funding that the 
program will require in individual years beyond 2002.
    Now, just on the testing aspect of that, I know we had Phil 
Coyle, Mr. Christie's predecessor. He issued a report that 
we've already talked about, we had some difficulty getting it 
from the Department. But he described severe deficiencies in 
the testing program. He said the effectiveness was not yet 
proven, even in the most elementary sense. It was too immature 
to even assess its effectiveness in terms of the program. The 
program failed to test basic elements of the system, such as 
countermeasures and multiple engagements, which we expect to be 
the norm. And that the system would not be able to defend 
against accidental, unauthorized launches.
    In all, he made about 50 specific recommendations. Can you 
tell us what the status of this program is in terms of its 
addressing those 50 very specific recommendations that Mr. 
Coyle made?
    General Kadish. Mr. Tierney, the assessment that he made 
was against a program definition that no longer exists. He 
certainly had the characteristics of it and the legacy of it. 
But the basic architecture does not exist.
    In fact, however, I believe most of the recommendations, 
and I have to get you that for the record, that he made are 
embedded in our concept of the test bed. We have put an awful 
lot of budgetary resources in place to get to the testing of 
the ground based system and then other layers as well, as we 
add them into a more rigorous and comprehensive set of tests.
    And what we have done with the test bed is to address some 
of the main weaknesses that we all saw, as well as Mr. Coyle, 
in the way we were testing such a complex and unprecedented 
system. I believe that our current plans in fact address those 
weaknesses.
    Mr. Tierney. You can understand how a skeptic may think 
that you just defined yourself out of a problem, that you have 
redefined your situation so as not to have to address those 
problems. So I'm going to ask if you would in fact provide us 
with the information of just how specifically those 50 issues 
are embedded in your new test program.
    General Kadish. I'd be happy to, even though some of them 
might be totally applicable to the direction we're going now.
    Mr. Tierney. I might as well stop here and come back on the 
other round.
    Mr. Shays. OK, we'll do a 10 round match on that.
    I would say, the gentlemen asked a lot of questions, I just 
want to make sure that when we put in on the table that we 
really go through them all. So I want to make sure you have the 
opportunity to do that.
    I'm a little delinquent in not recognizing that Mr. Platts 
has joined us and Mr. Lynch. We thank you both for being here.
    At this time, Mr. Schrock, you have the floor.
    Mr. Schrock. I have no questions at this time, Mr. 
Chairman.
    Mr. Shays. OK, the gentleman passes. So I go to you, Mr. 
Platts, if you'd like.
    Mr. Platts. No, thank you, Mr. Chairman.
    Mr. Shays. Mr. Allen, we'll go to you.
    Mr. Allen. Thank you very much, Mr. Chairman.
    I want to begin with Mr. Christie. We've heard a lot of 
testimony in the past about a test bed, the Fort Greeley test 
bed. In your testimony, you said, ``When fully implemented, the 
test bed will mitigate many of the existing test limitations 
and restrictions that prevented operationally realistic flight 
testing identified during planning for the former national 
missile defense program.''
    My question is about what test bed we're talking about. 
General Kadish has testified that no flight tests are planned 
from the Fort Greeley site by the fall of 2004 in large part 
because booster segments would fall on populated areas. So help 
me with how you're using the word, and your implication that 
the test bed, Fort Greeley or something else, promotes 
operationally realistic testing of the ground based midcourse 
system.
    Mr. Christie. I think the test bed involves a lot more than 
Fort Greeley. Now, it does involve the BMCQ setup there that 
will be used during testing.
    Mr. Allen. I'm sorry, could you repeat that? It involves 
what?
    Mr. Christie. It will involve the facility that will house 
the battle management command and control system that will be 
exercised during testing. What the test bed does with the other 
elements, in the longer term, is provide an opportunity to look 
at multiple launches, different geometries, both of which I 
think were criticisms that were rightly levied earlier by Mr. 
Coyle, as a matter of fact. In fact, the test bed will provide 
an opportunity to do quite a bit of the testing that were 
raised as issues.
    Mr. Allen. Geographically, what are you referring to when 
you say the test bed?
    Mr. Christie. Geographically it almost involves the entire 
Pacific Ocean. It will involve improvements at Vandenberg, 
Kodiak, perhaps the Shimia radar and other capabilities at 
Kwajalein, I think, that are not here now.
    Mr. Allen. Second, in your testimony you mentioned the 
Senate provision that would further require TO&E to provide 
operational assessments for several missile defense programs. 
You state that you will satisfy the intent of that language 
under current reporting requirements. If you intend to comply 
with the spirit of the provision, what is the difference in 
complying with the letter of the provision that's in the Senate 
legislation, if that gets enacted? And would you object to the 
Senate legislation in the conference committee?
    Mr. Christie. I do not object to the Senate legislation. 
All I'm saying is that I think the purpose of the Senate 
legislation will be served by my report next February and 
subsequent Februaries. I will include in those reports 
operational assessments of the system as tested up to that 
point.
    Mr. Allen. General Kadish, I am not going to have as much 
time as I had hoped, but let me just ask you quickly, when you 
testified before the Armed Services Committee on June 27th, I 
asked a series of questions about the technological capability 
of the Fort Greeley, at least I thought I was asking about the 
Fort Greeley test bed, I know I was, by fall 2004. To the 
question, will MDA conduct a test by the fall of 2004 where the 
trajectory of the target is unknown, you responded that you had 
plans to, but didn't know whether the date was before or after 
September 2004. Do you know the answer to that question now?
    General Kadish. After I got back, I checked. Right now 
we're planning it after that timeframe.
    Mr. Allen. Likewise, are tests with unannounced target 
speed, launch time and countermeasure sweeps planned before 
2004?
    General Kadish. I checked, and that's subsequent to 2004.
    Mr. Allen. Are tests involving a decoy mimicking the 
warhead, a tumbling RV and a radar jammer planned before fall 
2004?
    General Kadish. Some are and some aren't. I prefer to 
answer that more distinctly for the record, because some of 
that will be sensitive information.
    Mr. Allen. That will be fine.
    In your opinion, why was September 2004 selected for the 
date for emergency capability at the Fort Greeley test bed?
    General Kadish. Implicit in the question that the emergency 
capability is the primary focus of the test bed, and the way we 
look at it is that the primary focus of the test bed is to do 
testing. What we call hardware in the loop, all hooked up, pan-
Pacific test range, and that's the earliest we can do the test 
bed.
    Emergency capability is something to be looked at over the 
next few years and subsequent to September 2004 to see whether 
or not that makes sense.
    Mr. Allen. Mr. Chairman, if I could, when you use the word 
test bed, are you referring to Fort Greeley or something else?
    General Kadish. Fort Greeley is a part, a major part, but 
only a part of the entire test bed. It's unfortunate that it's 
gotten the moniker of the test bed itself. Fort Greeley is the 
northern edge of the test bed. It extends to the Kwajalein, it 
extends to Hawaii, it extends to Vandenberg Air Force Base. So 
it would be helpful for us maybe to talk about the test bed in 
general, not just the Fort Greeley portion of it.
    Mr. Allen. Thank you very much.
    Mr. Shays. I'd like to ask some questions at this time. 
Then we'll go to our colleague from Massachusetts.
    I am concerned that we walked through Mr. Tierney's 
statement, because he has a number of questions. He talks about 
benchmarks, and I appreciate him giving me his statement. He 
talks about benchmarks, funding, programs. Also just in terms 
of the pace of the program. Then what is not realistic is the 
question raised by Mr. Kucinich about what we're doing right 
now. I'm going to basically say that we have so much on the 
agenda, I don't know what we will be able to cover successfully 
here. But we haven't even gotten into what is the threat and 
are we responding to the threat. I am frankly going to put that 
off to another day.
    But let me ask you in general terms to comment about 
benchmarks. What did we eliminate, in your view, and what 
replaces those benchmarks? And are benchmarks important, in 
your judgment? It's a more general comment.
    General Kadish. Typically, in a program, the National 
Missile Defense Program, and I have to go back and check this, 
when we were specifying that, had some specific milestones it 
was supposed to meet in order to get to a 2005 timeframe. They 
were schedule driven and they were part of the process.
    What we're trying to do now, however, is to look at what 
are the benchmarks or knowledge that we have, if you will, 
about this particular system as we progress over time. We will 
certainly have goals and objectives for a program. But this is 
not a program that has specific deployment goals yet, where we 
have specific quantities of interceptors that we're going to 
buy over a 20 year timeframe. We are still trying to decide 
whether or not we have enough confidence in the system to take 
it to the next step.
    So in the next year to 2 years, and you will see this in 
the other elements, from ABL to Patriot-3, we have specific 
targets and objectives we are trying to meet with the dollars 
that have been allocated by the Congress in our specific 
program elements. But they are not the traditional, long term 
milestones that you would see with a major defense procurement 
program, because we're not to that stage yet.
    We have deemed so far, at least at the MDA level, that we 
are not ready to procure other than the Patriot-3 system. So 
when we get to that point, we intend to have the benchmarks 
that we traditionally tend to associate with the defense 
procurement programs and go forward.
    Mr. Shays. I'm trying to recall, in the 16 years that I've 
been here, I was thinking just parenthetically that when our 
colleague was talking about, he was boasting that he was the 
last to have high school physics, I made the assumption that 
probably when you were getting your first star, he wasn't even 
born. [Laughter.]
    I'm a little troubled by this, because my 10 years on the 
Budget Committee kind of get me thinking that really, what you 
almost seem to be suggesting is that we inherently assume or 
know that there is a threat and we want this system. Those are 
the two things we know, and we know we can't deploy, because we 
don't have a system yet that works.
    And because of that, we are less inclined to have 
benchmarks. It would strike me that we would, even if it's just 
an issue of research before we go to deployment, we would have 
certain benchmarks to be able to understand the whole issue of 
cost.
    General Kadish. I apologize if I left you with a mis-
impression. Certainly over the near term we have specific 
benchmarks that we are measuring to. Maybe Dr. Stansberry could 
comment on that.
    Mr. Shays. So these are short term?
    General Kadish. These are shorter term benchmarks, 
primarily because we are in an unprecedented technology area.
    Mr. Shays. Let me just tell you what that says to me. What 
that says to me is that we do not have the ability to have long 
term benchmarks, because we simply don't know when this program 
is going to be workable. We're trying to have a bullet hit a 
bullet, basically. So we know that's pretty significant.
    So before I get into the short term, you're basically 
agreeing that, or would you respond to my interpretation of 
what you're saying, and that is that we can't have long term 
benchmarks because it would be difficult to even begin to have 
them, given that we don't know when a system is workable?
    General Kadish. We certainly have long term ideas of where 
we ought to go in the program. What I'm trying to suggest is 
that they are not as hard and fast as traditional, major 
defense procurement programs would have us have them.
    Let me give you an example. We had those long term 
benchmarks for something called the Navy Area Program for a 
number of years in our portfolio. And as I look back on it, I 
think, I can get you the exact dates, but it seemed like we had 
three major restructures of that program every 18 months. All 
of those long term benchmarks changed because of the technology 
progress in the program. We weren't able to stabilize the 
program. We finally gave up on it in the process.
    If we had paid attention to the shorter term program 
objectives, I think we would have probably made more progress 
in that program than we really did.
    Mr. Shays. Yes. I'm not going to disagree with the logic, 
but the implications are significant. And let me just at this 
time recognize Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Thank you very much, General, for your attendance here 
today. I'm new to this committee, and somewhat new to this 
issue. I did have an opportunity some months ago, however, to 
meet with a gentleman by the name of Theodore Postel at MIT, 
someone who is an expert in missile technology and I would 
describe him as a pretty strong critic of some of the proposals 
that you are putting forward.
    In fairness, I just wanted to present some of his 
objections to you, just to get a sense of your response. After 
all, we're just trying to gather some information here. 
Professor Postel had much, much in line with what Mr. Kucinich 
was talking to earlier, had expressed the real difficulty in 
the technology that we were using, that at the very bottom of 
it it was unlikely that the current technology would ever be 
able to distinguish between an actual missile and a number of 
decoys that might be thrown up at the same time in a missile 
attack.
    It was Mr. Postel's position that a very expensive missile 
defense system could be compromised by a technologically simple 
countermeasure. And if we're going to be putting all this money 
into such a system, we would want some assurances on behalf of 
the American people that this is going to in the end provide 
some significant measure of protection.
    Where are we on this?
    General Kadish. I guess the way I would respond is that 
countermeasures are always a problem for military systems, it 
doesn't matter whether it's missile defense or tanks or 
airplanes. In the case of missile defense, there are particular 
problems with countermeasures. But it depends on what phase 
you're trying to intercept the target missile in, whether it's 
boost phase, midcourse or terminal.
    Now, certainly, each one of those phases has its own set of 
countermeasures and difficulties for the offense, but also 
there are difficulties for the adversary. The way I would 
respond is that our basic approach to countermeasures is the 
layered defense system that we're trying to build. Although we 
will probably end up building it incrementally, if we do so at 
all, what countermeasures work in boost do not work in the 
midcourse. Those that work in midcourse don't work in the boost 
phase. So the idea of layered defenses is its own counter 
countermeasure.
    Certainly, within each one of those phases, we want to get 
as good as we can. There are techniques that we will use to 
make each one of those phases more countermeasure resistant. 
But the idea that we put forth to handle this problem is that 
we want a layered defense system that takes multiple shots at 
our adversary in each of the phases that the missile has to 
pass through. And that, we believe, will be the most effective 
counter countermeasure.
    Mr. Lynch. OK. That sounds like a very, very expensive 
system, and I'm not so sure--well, let me just go on to the 
second point that he had. And that was, I responded to him by 
saying that there had been some level of success in the 
testing, and that we had some results that indicated there was 
the ability here to at least some of these missiles down in the 
testing sequences.
    His response was that the testing protocol that we're using 
was, well, this is also from some literature, from people who 
agree with him, that it was almost akin to skeet shooting, 
where in our testing, our defense systems were being told, here 
comes a missile. And so it's like, in skeet shooting, someone 
yelling pull, and then the target goes out and when we shoot it 
down. He said the basic premise that we're going to be 
instructed that there is a missile on the way is inherently 
faulty, and that it undermines the very results that we're 
being given.
    Any response to that?
    General Kadish. There is no doubt that the early 
developmental testing we have done, in the case of the ground 
based system that he's alluding to, we've only done six tests. 
We call it a walk before we run approach. You've got to 
understand how to pull the trigger on that shotgun before you 
know how to hit the piece you're looking for in skeet shooting.
    So the early tests have been designed to be just that, 
early demonstration of the technology. There will in time, 
however, be more and more complications added to the test to 
get at this countermeasure problem in the midcourse. We 
certainly have not answered the question, how effective is this 
midcourse system, ground based, against the variety of decoys 
that it might go up against. We have not answered that 
question, and I don't think we will answer it any time in the 
short run. It's a long term problem that we're dealing with 
with that type of countermeasure situation.
    That, however, doesn't mean that the system is ineffective. 
We have early indications from our study of this problem that 
we are gaining more and more competence, we will be able to 
solve the countermeasure problem in the midcourse to our 
satisfaction, enough to be competent in it. Then with the 
layering of the defense to complicate the adversary's problem, 
we would make that even more effective.
    So that's the approach. And over time, only time will tell 
in our tests just how effective we will be against 
countermeasures.
    Mr. Lynch. General, I want to thank you for your honesty 
and your frankness here today. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    This is what I'd like to see if we can do. We have an issue 
of benchmarking, we have one issue of how realistic are the 
tests now and where we have to go. We have issues dealing with 
the benchmarks, the funding of the program itself and the pace. 
I'm just wondering, and I'd be willing to allow unlimited time 
on this, if we could just talk about the realistic aspects of 
the test right now.
    And if we could just find out what's realistic and what 
isn't realistic about the tests, and allow Members to just 
focus on that, I'm wondering if that would be agreeable. I want 
to participate in the questions. Mr. Putnam wants to be able to 
jump in, but doesn't need to necessarily reserve time.
    Would that be agreeable to you? Why don't we just see how 
it goes.
    So let me throw out the question, starting the first round, 
and allow you to interrupt, Mr. Kucinich, and take over, ask 
some questions as well. And you as well, Mr. Tierney, and you, 
Mr. Lynch.
    Tell us, with what you showed us, tell us what is 
realistic, or what was done that makes it artificial to start 
but still an accomplishment. I'm going to consider a bullet 
hitting a bullet as significant. Knowing when the gun shot off, 
knowing what level, knowing all these things, it's a start. But 
eventually, in order to be realistic, it has to know more.
    So let's answer the question really that my colleague Mr. 
Kucinich wants to know. What was realistic and what wasn't 
realistic about this test? Where do we have to go beyond this 
in order be to realistic? Or if you want to ask it a different 
way, I think you get the point. Why don't you jump in to answer 
that.
    General Kadish. Well, Mr. Chairman, maybe we ought to 
define what realistic means, just for purposes of our 
conversation, if it's all right. Then we can talk about it 
later.
    Mr. Shays. Fine.
    General Kadish. Normally what people mean when they say 
realistic is to design a test so that it represents as close to 
what a war fighting situation would be, if we were under attack 
from North Korea or whatever location, how would the system 
respond to that attack that is unannounced, that has some 
decoys and those types of things in it.
    We have not conducted that kind of test against any of our 
systems except the Patriot-3. And even in the operational tests 
of Patriot-3, there was some artificiality.
    Mr. Shays. The Patriot-3 is the short term?
    General Kadish. It's the short range missile.
    So the films that I showed you were realistic only in the 
sense that we, from a technical point of view, set objectives 
to do hit to kill, something that's not been done before in 
those regimes, and to do it repeatedly enough to have 
confidence that we know how to do that.
    Now, as we progress by building the test bed for the ground 
based system and our other activities, we're going to vary the 
geometries, we're going to make the tests harder from a 
developmental standpoint, to do full out what we call the 
envelope of its performance. Then we will at some point in this 
process make a determination that we should go to more 
operationally realistic testing, which is the thrust of your 
question.
    I suggest that will probably, for the ground based system, 
be somewhere in the neighborhood of 2004, 2005, 2006 timeframe. 
And we will be doing it in concert with Mr. Christie's 
activity.
    Today, we cannot do that type of testing to the extent we 
want to because of the limitations of our test infrastructure. 
When we build a test bed, we will have more opportunities to 
test in a realistic way than what we have today. That requires 
investment and it requires 2 or 3 years of time to build it.
    Mr. Tierney. Mr. Chairman.
    Mr. Shays. Before the gentleman jumps in, let me just ask, 
so I'm clear, are we talking three different types, we're 
talking the short range, mid range and long range? And with the 
Patriot-3, we're just talking short range, right. But you are 
already on record as responding to Mr. Kucinich and saying we 
obviously knew it was going to take off, we knew the level it 
was going to be, etc.
    Excuse me, just jump in, General.
    General Kadish. Those are the types of things we want to 
know in early developmental testing, so that if we have a 
failure or even for that matter if we have a success, we know 
exactly what happened in the timeframe. We try to reduce those 
variables in early developmental testing, so that when we go to 
realistic testing, we can be confident it will work as 
intended.
    Mr. Shays. Let me just tell you what would be helpful, 
though. It would be helpful for you to be able, here or later 
on, to list all the things that are not ``realistic'' about it. 
And it's probably a fairly long list. It would seem to me that 
if you're saying those are the variables that you would just 
begin to tell us the things you will begin to add to make it 
more realistic. That would be helpful for us to visualize.
    General Kadish. We will do our best.
    Mr. Shays. Mr. Christie, are you capable of responding to 
this part of it?
    Mr. Christie. Certainly. We will provide that for you.
    Mr. Shays. Thank you. Do you want to jump in?
    Mr. Tierney. I do, Mr. Chairman, if it's all right with you 
and the ranking member. I'm going to take this slightly in a 
different direction, but not much. We used to have an 
operational requirements document. In fact, that's what Mr. 
Coyle used, it was very helpful to him to make an assessment of 
where the program was, and whether or not it was achieving its 
stated goals at a given time.
    My understanding of the ORD is that it set forth specific 
objectives, specific military requirements and specific time 
lines. Now Secretary Rumsfeld has done away with the ORD. So 
how are you going to communicate to Congress what this 
program's specific objectives are, its specific military 
requirements and its specific timelines?
    Mr. Shays. Could I just ask, just to know, I'm happy to 
spend as much time as we need to on that issue, but are we 
content with leaving the whole issue of realistic?
    Mr. Tierney. Well, there's no chance it's even close to 
realistic. I don't know how much you want to explore that.
    Mr. Shays. I just want to make sure we deal with that 
issue. You can have 15 or 20 minutes to pursue your question.
    Mr. Tierney. I don't think you can break it up that way, 
but I'm fine to go back and give it a shot.
    Mr. Shays. Let's just see if we can know what's realistic 
or not. Did you want to do that?
    Mr. Kucinich. First of all, I'm pleased that Mr. Tierney, 
who has done so much work on this, continues, from my point of 
view. But I am going to go back to the testing and what's 
realistic, whenever that's appropriate.
    Mr. Shays. Yes, go ahead.
    Mr. Tierney. I don't think you can break it down that way 
and make any sense, but I'm happy to yield.
    Mr. Shays. Let's just experiment and see, even though we 
don't have a long range plan here. This is about what's 
realistic.
    Mr. Kucinich. General, do you believe that a judgment that 
the planned missile defense system can work against realistic 
countermeasures must be based on a sound analysis of the 
performance of the planned system against feasible 
countermeasures designed to defeat it?
    General Kadish. As you state it, I don't have any problem 
with that at all. That's what we're trying to do.
    Mr. Kucinich. Should such an analysis indicate that the NMD 
system may be able to deal with such countermeasures, do you 
believe that there should be a rigorous testing program that 
incorporates realistic countermeasures created to assess the 
operational effectiveness of the planned system?
    General Kadish. I do. We have a small problem in 
approaching that, because we have to build those 
countermeasures, and that's not a trivial task.
    Mr. Kucinich. Do you believe the United States should 
demonstrate that the system could overcome such countermeasures 
before a deployment decision is made?
    General Kadish. I think that there are many ways you could 
decide to deploy, but I would certainly want to have some 
personal confidence that we can handle countermeasures that we 
expect to see.
    Mr. Kucinich. So is that a yes, then?
    General Kadish. It is as I stated.
    Mr. Kucinich. I will ask it again. And it's true, I got the 
answer, and it's not very clear.
    I want to ask, because it may be difficult or impossible to 
obtain direct information about the countermeasure programs of 
other States, do you think that the United States should rely 
on red team programs that develop countermeasures using 
technology available to emerging missile States to assess the 
countermeasure capabilities of potential attackers?
    General Kadish. I not only believe that, we have set that 
structure up. It has actually been over a year, I think, in 
operation, using that technique.
    Mr. Kucinich. Isn't it true, General, that the red team 
programs that currently exist are under the financial control 
and authority of the Ballistic Missile Defense Organization?
    General Kadish. That's true.
    Mr. Kucinich. And isn't that, General, a conflict of 
interest, inherently?
    General Kadish. I don't believe so.
    Mr. Kucinich. I don't have much military experience, but I 
know from brothers who have served that when they take part in 
maneuvers and there's a red team, that red team doesn't have 
information about what the other teams are doing.
    General Kadish. We have set up a structure that General 
Larry Welsh chairs our red, white, blue team structure that 
you're suggesting there. Although it's true we have chartered 
that activity, the access to information by the two gentlemen 
sitting on either side of me is certainly going to be there. I 
can also attest to you, you might want to call General Welsh. 
But he is no shrinking violet in his opinions, and in fact has 
been one of our more constructive critics over time.
    So I am very confident that the independence you suggest is 
inherent in the program, even though we are responsible to make 
sure that our countermeasure program is----
    Mr. Kucinich. And I want it said for the record that the 
General has testified that the red team programs are under the 
financial control and authority of the Ballistic Missile 
Defense Organization. These are people that are supposed to be 
giving an independent evaluation of whether or not these 
countermeasures work.
    Now, I want to go over a few points here about the testing 
program. Do you believe that the testing program must ensure 
that the baseline threat is realistically defined by having the 
systems threat assessment requirement, or the STAR document 
reviewed by an independent panel of qualified experts?
    General Kadish. I don't think that's going to be good 
enough, Congressman. I think that we certainly need to pay 
attention to the intelligence based description of the threats. 
Because that's an important element in our construct.
    But inherent in the approach we're taking, capabilities 
based is that I don't want to trust that document. I want to go 
beyond----
    Mr. Kucinich. You don't want to trust what document?
    General Kadish. The STAR document. It's certainly an 
important piece. But from a physics standpoint, there are many 
things that we need to do to make our systems responsive, that 
we could make inherent in our systems that don't pay attention 
to an exquisitely defined threat. Because if we go that route, 
we will always be chasing the threat.
    What our intention is is to put a capability in the system, 
so that the threat that the STAR and other documents from the 
intelligence community produce falls within that space so we 
can handle it.
    Mr. Kucinich. Thank you, General.
    Mr. Chairman, I raised that issue because there is 
available evidence that strongly suggests that the Pentagon has 
greatly underestimated the ability and motivation of emerging 
missile states to deploy effective countermeasures. There are 
strong indications that the Pentagon's STAR document, an 
operational requirements document, which describe the type of 
threat the NMD system must defend against, underestimates the 
effectiveness of countermeasures that an emerging missile state 
could deploy, and inaccurately describes the actual threat. If 
the threat assessment and requirements documents do not 
accurately reflect the real world threat, then an NMD system 
designed and built to meet these less demanding requirements 
will fail in the real world.
    So that's why, General, I asked the question, if the 
testing program would conduct tests to ensure that the baseline 
is realistically defined by having the STAR document reviewed 
by an independent panel of qualified experts. Mr. Chairman, 
it's a central question that relates to the real world.
    General Kadish. Congressman, I agree with you. I don't 
think the STAR is adequate, either.
    Mr. Kucinich. Then I'm going to ask you, General, whether 
the testing program must conduct tests against the most 
effective countermeasures that an emerging missile state could 
reasonably be expected to build?
    General Kadish. I agree with that, too.
    Mr. Kucinich. And I'm going to ask if the testing program 
must conduct enough tests against countermeasures to determine 
the effectiveness of the system with a high degree of 
confidence?
    General Kadish. Not yet, Congressman, but we intend, when 
we move into test bed, to do just that.
    Mr. Kucinich. And finally, for this round, I want to ask if 
the testing program must provide for objective assessment of 
the design and results of the testing program by an independent 
standing review committee?
    General Kadish. We have a committee in front of you today, 
I guess, plus a lot larger part of the DOD. I'm not sure what 
you mean by independent, but I'm sure and confident that it 
will be reviewed by the decisionmakers with many different 
points of view.
    Mr. Shays. I thank the gentleman.
    What would be helpful for the committee to have would be 
all the variables that ultimately add up to a realistic test, 
and for me, I don't have any trouble understanding that right 
now it is not realistic, because we're in the infant stages of 
this. But eventually, we will have to go through all of these 
different variables. I would be eager to know if the 
administration would be advocating going to production before 
we get to all those variables, whether if we get to three-
quarters of the variables are they going to start to say, we 
need to go into production.
    So it's not something I'm going to ask for now, because I 
don't think we're going to answer all the questions. But what's 
clear to me, what I've always assumed was the tests were never 
realistic because we're not at that point yet. And I'd also 
like to know, even though we know we don't have these 
benchmarks, you said 2004, 2006, I'd like to have it a little 
bit more pinned down.
    I'm going to also say that we've had other administrations, 
Republican and Democrat, who have come before this committee 
with benchmarks that all of us know are a joke. That's about as 
unacceptable, even more unacceptable than no benchmark. At 
least it's an honest response that we aren't there yet. But it 
does say that we have then no ability to even begin to know its 
cost.
    What I'm going to do is, I'm going to give the gentleman, 
just for a sense of time, I'm happy to give him 10 minutes and 
I'm happy to roll over 10 minutes. But I just want to have a 
sense of time, and give you the floor.
    Mr. Tierney. Other than costs, setting that aside, I think 
it's important to have these benchmarks where you make a 
determination of whether it's worth proceeding forward at some 
point in time, or when you change direction or when you give 
up.
    Does the chairman intend, when you asked for a list of 
realistic factors, to include also whether or not the tests 
will be using the actual equipment that will be anticipated for 
use in the final product, versus whether or not the booster 
will be the final booster versus the prototype, whether or not 
you'll be using the x-band radar versus the Cobra, just 
updated, or is all that part of that, or are you only talking 
about whether and other variables?
    Mr. Shays. Let me just say that there are some things that 
won't be totally realistic, because we won't have a fixed--we 
won't necessarily have a facility in Alaska set up, a facility 
in Great Britain set up, we won't necessarily have a final 
product. But to answer your question, I want to know all the 
variables that add up to what the Department thinks will be 
ultimately a realistic test. That's what I'm asking for.
    Mr. Tierney. Just to finish up this realism issue here, 
right now, the interceptor that's being planned basically 
determines whether it's a weapon that is striking or a decoy, 
using the infrared system.
    General Kadish. We intend to use not only that infrared 
onboard system, but the basic operation is that, the early 
stages of this is that the kill vehicle has a large burden in 
that, yes.
    Mr. Tierney. So it's like looking at it?
    General Kadish. Right. But there are other elements in the 
radar area that we want to mechanize as soon as we can.
    Mr. Tierney. So it will more distance--we're a decade away 
from the x-band, right, at least?
    General Kadish. I wouldn't share that opinion, no.
    Mr. Tierney. Well, tell me what your opinion is, because I 
want to hold you to it some day. When do you think we'll be 
ready with the x-band?
    General Kadish. It depends on what type of x-band you're 
talking about, Congressman.
    Mr. Tierney. One that works. One that is anticipated to 
work.
    General Kadish. I assume it will work. We're trying right 
now to figure out, without the ABM Treaty to put on 
restrictions, just what size x-band makes sense and where we 
ought to put it in our architectures. Because of the treaty 
limitations now going away, there are some possibilities 
opening up where we can use less powerful x-bands than what we 
were talking about 2 years ago, with the big radar at Shimia, 
for instance.
    So I don't want to answer that question yet. But the 
indications I have are that it will be a lot sooner than you 
suggest.
    Mr. Tierney. It may be, if those circumstances come to bear 
that you can use the smaller ones.
    General Kadish. That's correct.
    Mr. Tierney. You still have to negotiate use of land, 
wherever you do decide to locate, whatever States might be 
involved, right?
    General Kadish. Well, sea based radars are not out of the 
question.
    Mr. Tierney. Not out of the question, but land based ones 
aren't either, and it they're land based you've got do some 
serious negotiation.
    General Kadish. Well, if we can do them on sea, we can do 
them on land and then it depends, as you suggest.
    What we need to do now and what we're looking at very 
carefully is deciding what to put in our test bed in the 
Pacific to prove out these concepts. Because I don't want to 
only rely on our analysis, based on the testing we've done to 
date on this.
    Mr. Tierney. One of the issues that comes up when you're 
talking about using infrared to identify or distinguish between 
the missile coming in is of course, it's looking at it, in a 
sense. And when you're in that space area, as you're talking 
about, there's no air drag. There being no air drag, it's very 
difficult to distinguish between slow and fast, as the weight 
isn't holding it up.
    So there has been, to my knowledge, no test and no 
scientific theory even that tells us how we're going to be able 
to do that, if someone decides to surround a weapon with an 
envelope of some sort that makes it look like a decoy. I'm not 
even aware of any scientific theory, maybe you can enlighten me 
on that, but I don't know of any scientific evidence or 
analysis yet that shows we're able to deal with that situation.
    General Kadish. Mr. Tierney, I would offer to you, I would 
be more than happy to come over and discuss in a classified 
forum why we think we can do that.
    Mr. Tierney. OK. Is this something more classified than the 
last one you tried to show me about?
    General Kadish. I don't recall trying to show you that.
    Mr. Tierney. We had a classified meeting that I was at with 
the Armed Services Committee a while ago and we went through 
this adventure.
    General Kadish. You're asking a very specific question 
about the kill vehicle, YR. We didn't discuss it in that level 
of detail at that session.
    Mr. Tierney. Well, maybe we should meet then. I'd be happy 
to sit down and talk with you about that. Because you would 
agree with me that's a concern?
    General Kadish. That's been a concern all along. That's why 
we're testing.
    Mr. Tierney. I guess on this idea of testing, one of the 
reasons for this is, back in 1997 and 1998, the agency, I don't 
even think you were here yet at that time, when did you start?
    General Kadish. I think it was 1999.
    Mr. Tierney. In 1997 and 1998, the agency ran some tests 
and basically tried to tell us all what a great success it was. 
Then we all looked back, we looked at it and found out that it 
wasn't such a great success after all. They claimed success in 
distinguishing and they said it was beyond all expectations. 
Well, apparently it was, because the GAO found out that the 
sensors had failed, and that the claims of success could not 
possibly have been true.
    So that's what I want to make sure of, that we don't get 
into that situation. I'm really concerned that we have some 
ability, that the GAO or a critic like Mr. Postel, or the Union 
of Concerned Scientists or other people be able to evaluate 
what's going on, other than the agency itself. You're not going 
to be there forever, so it's not bringing your integrity into 
question. But in 1997, 1998, we had that kind of scenarios 
happen. After that, we had a situation where 10 times brighter 
decoy than a bomb was used and it struck and everybody claimed 
success. Only later did they find out that it was preprogrammed 
to strike the brighter object, and distinguish it on that 
sense.
    So I want to make sure that we have in place the kind of 
safegauards were people can look at it and see what's going on. 
Now, Mr. Coyle tells us that we're not anywhere near the 
development of decoy technology and situations, a matter where 
we should be classifying this stuff, and that we're a long 
distance away from that, we're still in the somewhat 
rudimentary stages here, that essentially we're just holding it 
from the public. That disturbs me.
    When we get to a point, someplace down the road, there may 
be a time to classify stuff and keep it out of everybody's 
mind. But in the meantime, I think it's really important, if 
you're talking about spending $238 billion, eventually, which 
is numbers that we'll go over in a while, then I think the 
public has a right not just to have Congress look at these 
things, because sometimes Congress doesn't jump on board with 
anything military, but to have an assessment done by people. 
We're not all rocket scientists in the public, but some people 
are. They ought to have a right to look at it and make a 
determination and raise some constructive criticism and move 
forward on that.
    So maybe you can share with me what's going on now that you 
think you have to classify that kind of information at this 
point of early development. And contrary to Mr. Coyle, who I 
would think is a fairly knowledgeable and sophisticated 
individual's opinion.
    General Kadish. With all due respect to Mr. Coyle, I do not 
share his opinion on that issue. We are at a point now, as I 
tried to indicate with my description of the ops tempo testing, 
that is not outside the realm of possibility we might be 
proposing specific design construction of a system over the 
next few years, based on our testing progress. The testing that 
we start doing now with countermeasures in my view should start 
to be limited in terms of its access to the general public 
view, for a simple reason. That is that if we specify the exact 
type of countermeasure, its dimensions, down to a hundredth of 
an inch that we did on previous tests, the types of material 
it's made out of, how it's deployed, where it is in the 
constellation, then I think we would be derelict in our duty to 
prevent that information from getting in the hands of people 
who could use it against us.
    Mr. Tierney. Yes, but you're not--come on, General, be 
serious, you're not even at the stage where you're moving 
outside of broad categories on this stuff. You're talking about 
rudimentary, you haven't even tested strike objects coming in, 
things of that nature.
    General Kadish. We intend to make our tests more 
complicated. And as we do, I see no value in allowing our 
adversaries that will wish us harm to know that type of data 
with great specificity or confidence.
    Mr. Tierney. Let's assume that our adversaries aren't 
totally dense, that they're at least going to assume some of 
the lower level types that you'll be testing on at these early 
stages. I mean, they've written about them everywhere, I've 
seen reports, you've seen reports, the world has seen reports 
on it. So I know and they know that you're going to do testing 
at that level. There is no reason to keep classified the 
results of your tests as to how you're doing on that, other 
than to hide failures.
    And I think that's what disturbs me. You will be testing 
immediately some very simple, so it's decoys and testing on 
that basis, before you get down the road to any of the things 
you're talking about, more complex and complicated, which at 
that point you may want to go classified with it.
    But in the interim, General, be serious with us and be 
blunt. You're talking about some very rudimentary things here, 
where there's no need to keep it classified, nor is there a 
need to keep classified the results of how your tests against 
them do.
    General Kadish. Congressman, I just differ with your 
opinion on that. I believe it's time that we start being 
serious about this as a war fighting technology----
    Mr. Tierney. Well, let me object to that for a second. 
Nobody's less than serious about this, General. Let's be adult 
about this and not start that kind of terminology. We're all 
dead serious about this. The fact that we're dead serious about 
it means that none of us wants to find out later that 
somebody's been pulling the wool over our eyes like they did in 
1997 and 1998 and shortly after that.
    So while we're here in these rudimentary stages or 
whatever, we'd like to see, as the American public, whether or 
not your tests will work, not to hear somebody say, hey, we're 
dead serious about it, so even at that stage, you can't find 
out. We want to trust you. But trust would mean that when you 
get to a stage where it's reasonable to go classified, that's 
when you make the recommendation to go classified, not at some 
rudimentary stage where everybody in the world knows what kind 
of decoys you're going to be testing against, they've read it 
in some literature and it's all the way out there.
    General Kadish. Congressman, I don't know what to say other 
than, we will give you and the Congress full access to the 
results of the tests. There is no question about that.
    Mr. Tierney. But not the American people.
    General Kadish. And as elected representatives of the 
American people, you can judge whether that's appropriate or 
not.
    Mr. Tierney. So you won't be classifying them.
    General Kadish. We intend to keep very sensitive data 
classified.
    Mr. Tierney. But you're telling me what you now are going 
to tell us is very sensitive is even your testing of very 
elementary types of decoys.
    General Kadish. I believe it's time now to do that, yes, 
Congressman.
    Mr. Tierney. I don't know how much longer you want me to go 
before somebody else gets a shot.
    Mr. Shays. We're going to get to the next panel soon. But I 
want you to proceed with questions. Mr. Putnam wants to ask 
some questions.
    Mr. Putnam. If I could, Mr. Chairman, just to pursue Mr. 
Tierney's line on this classification issue, can you name any 
major weapons system that has open or unclassified access in 
its early stages of development? Do we have the early stages of 
our stealth capabilities unclassified? Do we have our unmanned 
aerial vehicles and unmanned water vehicles, is that technology 
in its embryonic stages unclassified? Is there any major 
weapons system where we have had the embryonic stages of 
development and experiments and testing unclassified?
    General Kadish. I don't know if I can answer that 
categorically, but in my experience, maybe Mr. Christie can add 
to it, is that we generally don't reveal our weaknesses to the 
public in our specific weapons systems in terms of their 
vulnerabilities. That's reserved for internal decisionmaking 
and for the Congress to decide.
    Mr. Christie. I would elaborate on that, but I think the 
issue is one of classifying capabilities or weaknesses against 
specific countermeasures. That's standard practice in the 
Department. We deal with classified information along that line 
all the time, whether it's an aircraft and it's the 
vulnerability of its radar to somebody's countermeasures or 
whatever. So without getting into the merits of whether this 
should or should not be done at this point in time, I don't 
think it's any different than what we've done in other weapons 
systems. We're talking about vulnerabilities----
    Mr. Putnam. So systems vulnerabilities are routinely 
classified?
    Mr. Christie. Yes?
    Mr. Putnam. Systems vulnerabilities are routinely 
classified?
    Mr. Christie. They have been in the past.
    Mr. Putnam. It is not unusual or unique for missile defense 
vulnerabilities to be classified?
    Mr. Christie. In my experience, no, that is not.
    Mr. Tierney. Can I ask a question for a second, if you'll 
yield?
    Mr. Putnam. I yield.
    Mr. Tierney. Certainly it wasn't classified in the first 
several tests that we had that dealt with some forms of decoys. 
It only because of something that we wanted to classify when 
they were failures. In the earlier tests, decoys were used, the 
public was informed. If you look at the literature, there are 
volumes on it.
    So I just want the member to know that you may have 
intended to be genuine in your response, but at least with 
respect to this program, they've not been classified, and are 
only becoming classified now at these early stages. And I would 
hope that the gentleman might inquire about the joint strike 
fighter, about the F-22, about other weapons systems, all of 
which were tested publicly, which knowledge was not classified 
until much, much further down the road on that.
    Mr. Putnam. Reclaiming my time, the joint strike fighter's 
vulnerabilities are unclassified, is that what you're saying?
    Mr. Tierney. The tests. The testing for vulnerabilities at 
the very early stages of the decoy system. That will come at a 
later point when they're talking about more sophisticated types 
of decoys.
    Mr. Putnam. But I believe that Mr. Christie's specific 
testimony was that vulnerabilities are routinely classified, is 
that correct?
    Mr. Christie. That's right.
    Mr. Putnam. I yield back, Mr. Chairman.
    Mr. Shays. We're eventually going to get to the next panel. 
I do want to make sure, though, again, that we nail down the 
questions.
    Mr. Kucinich. We're nailing down our questions, Mr. 
Chairman, we're not nailing down the answers. And I would 
respectfully suggest that the line of questioning Mr. Tierney 
has been pursuing is probably the most important questioning 
that we've had in all these hearings. Because it really relates 
to what's legit and what's not. It relates to whether there's 
any fraud going on, frankly, or not. That ought to be a concern 
to the people.
    Because if the planned missile defense system could be 
defeated by technically simple countermeasures, and it in 
effect has been, people ought to know that. Because then the 
whole system is in question.
    So I think Mr. Tierney's question was right on the mark, 
and with all due respect, General, I'm going to give you 
another chance. The planned missile defense system, isn't it 
true that it could be defeated by technically simple 
countermeasures?
    General Kadish. I don't agree with that characterization. I 
think we have a lot of questions to answer to in terms of what 
it can and cannot do with countermeasures. But the missile 
defense system we envision is a layered defense system. It has 
a boost component, it has a midcourse component, potentially it 
has a terminal component. Countermeasures that work in boost do 
not work in midcourse, those that work in midcourse do not work 
in boost. And an adversary's problem is greatly complicated by 
that type of a system.
    Mr. Kucinich. Isn't it true, General, that such 
countermeasures, simple countermeasures, would be available to 
any emerging missile state that deploys a long range ballistic 
missile?
    General Kadish. Countermeasures are always available.
    Mr. Kucinich. And isn't it true there are numerous tactics 
that an attacker could use to counter the planned NMD system?
    General Kadish. That's exactly why we don't want to reveal 
our vulnerabilities.
    Mr. Kucinich. And isn't it true that none of these 
countermeasures are new?
    General Kadish. I would not characterize that at all. There 
are always new countermeasures. The F-22, the C-17, you name 
the system, has countermeasures today that they're facing, that 
they're vulnerable to.
    Mr. Kucinich. Isn't it true that most of the ideas that are 
countermeasures are as old as the ballistic missile itself?
    General Kadish. Countermeasures are a fact of life in 
military systems.
    Mr. Kucinich. Isn't it true that all the countries that 
have deployed long range ballistic missiles, that is Britain, 
China, France, Russia and the United States, have developed, 
produced and in some cases, deployed countermeasures for their 
missiles?
    General Kadish. I would assume so.
    Mr. Kucinich. General, you're in charge of this program. 
Are you assuming it or do you know it?
    General Kadish. I know that there are people, including the 
United States, that have developed countermeasures for 
ballistic missile to make it more effective.
    Mr. Kucinich. Do you have any reason to believe that 
emerging missile states would behave differently than the 
countries that I've just articulated?
    General Kadish. In the long run, if they had the ability, 
absolutely not.
    Mr. Kucinich. And do you believe that many highly effective 
countermeasures require a lower level of technology than that 
required to build a long range ballistic missile?
    General Kadish. I'm not sure how to answer that question, 
because if you look at, I'm told by very reliable people, after 
looking at this in depth, that the countermeasure development 
experience by the United States was very difficult to make them 
effective. So there is a lot of opinions on that. And quite 
frankly, I have not made up my mind whether or not these are 
easier to do or hard to do. But I can tell you that trying to 
make them to test against, and looking at how we make 
countermeasures to test against, it's not a simple proposition.
    Mr. Kucinich. Can an attacker disguise a warhead to make it 
look like a decoy?
    General Kadish. Sure.
    Mr. Kucinich. And when that happens, isn't it possible that 
the attacker could place a nuclear warhead in a lightweight 
balloon made of aluminized mylar and release it, along with a 
large number of similar but empty balloons?
    General Kadish. Anything is possible.
    Mr. Kucinich. Well, if that's possible, then the defense 
would need to shoot at all the balloons to prevent the warhead 
from getting through, but the attacker could deploy so many 
balloons that the defense would run out of interceptors, isn't 
that possible?
    General Kadish. It's possible, but if we had a boost phase 
layer, the chances are that we would have got that particular 
set of countermeasures before it was even deployed.
    Mr. Kucinich. And with respect to sub-munitions, isn't it, 
to deliver a weapon, whether it's biological or chemical, by a 
long range ballistic missile, an attacker could divide the 
agent, isn't that true, for each missile, among 100 or so small 
warheads or sub-munitions that could be released shortly after 
boost phase?
    General Kadish. That's possible. It would be very 
interesting and difficult for them to do. But if we had a boost 
phase layer, like we're intending to have, that would be a 
countermeasure to that particular countermeasure.
    Mr. Kucinich. Wouldn't it be true that the sub-munitions 
would be too numerous for a limited defense such as the planned 
NMD system to even attempt to intercept all of them?
    General Kadish. Our planned NMD system is a layered defense 
that includes boost, midcourse and potentially terminal 
systems. So I believe that if we had such a system, it would be 
effective.
    Mr. Kucinich. You testified earlier that this--you know 
what, Mr. Chairman, I'm going to pass right now.
    Mr. Shays. OK. Let me just jump in and clear up what I need 
to clear up.
    I accept the fact that testing will become more and more 
realistic as each test occurs, to a point where we'll know if 
the system works or not. And so I just intuitively accept that.
    I am having a little bit of wrestling, and I actually 
accept the fact that it is difficult to do benchmarks when you 
really don't know when you're going to get a realistic system 
and when you're going to go to deployment. So I can understand 
why long term benchmarks become almost absurd.
    But what I'm having a hard time understanding is, given 
that, how do we even begin to estimate costs? Whether the 
figure of $250 billion to half a trillion, I have no sense of 
how we can even begin to estimate costs. Do you think in fact, 
given that we don't have any benchmarks, given that we don't 
know yet if the system will work, is it possible to have a 
sense of cost, long term?
    General Kadish. Mr. Chairman, that's a very important 
question that we struggle with an awful lot. I can tell you 
that as we are developing our budgets and our specific program 
approach, we will have as good as we are able to cost estimates 
for the R&D part of this. And we're developing those now and 
hopefully in the near term we'll be able to tell people what 
they are.
    But they are indicated, for instance, in the level of 
budgets we have submitted to the Congress in the 5-year defense 
plan, with the amount of dollars we are allocating to this 
effort. Less than 2 percent of the budget, but about $8 billion 
a year. So you can get a sense from an R&D point of view, if we 
should execute that program at those funding levels, that 
somewhere in the neighborhood of $35 billion to $40 billion is 
where we're headed. Hopefully we can do it for a lot less.
    When you go beyond that, for procurement, it becomes, and 
this is where it gets difficult, the question of how much force 
structure you want to buy, how many missiles, how many radars 
and how many ships, how many soldiers are required to do those 
types of things. Those decisions are very difficult to estimate 
at this point in time.
    When we try to estimate those things, there is a single 
characteristic that seems to pop up every time, whether it's 
done by the Cost Analysis Improvement Group [CAIG] in OSD, or 
by the Congressional Budget Office, if you look at the 
assumptions, the cost estimate is as valid as the assumptions, 
but in the past, they have had one thing in common. 
Unfortunately, we've all been wrong on what the cost estimate 
has been or going to be.
    So I think we need to work this problem really hard, and we 
will. As we approach deployments hopefully in the future we 
will have much sharper cost estimates. And as we approach our 
development program, we intend to have very specific cost 
estimates for our development efforts. We will obviously make 
them available to the Congress.
    Mr. Shays. Mr. Christie or Dr. Stansberry, do you care to 
comment on that last question I asked?
    Dr. Stansberry, let me just be clear on your role. You are 
the administrative side of this, in a sense. Mr. Christie is 
the testing side of this. Your role in missile defense, define 
it a little better for me, if you would.
    Mr. Stansberry. My role in missile defense evolved out of 
the new oversight structure that Secretary Rumsfeld defined 
this year. And I am associated with the Missile Defense Support 
Group, which is independent of the Missile Defense Agency and 
evaluates the missile defense program, makes recommendations to 
the Under Secretary who is responsible for the administration.
    Mr. Shays. So you have to be doing a lot of thinking on the 
very things we've been asking about.
    Mr. Stansberry. Yes.
    Mr. Shays. I don't want you to leave without making sure 
that you--I want to make sure that before you leave, you 
respond to any question that you have heard asked here. Is 
there any question you've heard asked that you want to put on 
the record, clarify, elaborate on or whatever?
    Mr. Stansberry. Well, Mr. Chairman, I heard you raise a 
number of times questions about benchmarks. What we have done 
with the structure of the program is set apart a research, 
development, test and evaluation program that looks at all 
technologies for missile defense. Those are being run by the 
Missile Defense Agency, and General Kadish is responsible for 
that.
    When that activity brings some element of a system to the 
point where it looks like it has miliary utility and PAC-3, the 
Patriot Advanced Capability Level 3 is at that point now, when 
some element gets mature enough that we want to procure it and 
deploy it, then it enters into a transition where it will move 
from General Kadish's organization into whatever is the 
appropriate service for the procurement and deployment.
    While it's in General Kadish's organization, he is the 
authority for making acquisition milestone decisions. He has 
the authority for defining benchmarks. As individual elements 
move toward procurement and deployment, then they move into the 
standard acquisition process and they are then subject to 
acquisition decisions by the defense acquisition executive, 
advised by the defense acquisition board, with benchmarks that 
we are much more familiar with.
    There will be benchmarks, there will be reporting to 
Congress. We have restructured the program for what I believe 
are very good reasons, and that has changed some elements of 
the benchmarks for those parts of the program that are in 
research and development.
    Mr. Shays. I'm going to just comment that it strikes me 
that the benchmarks were dropped because they became very 
unrealistic and that we're making a determination to reexamine 
the benchmarks after we have a better handle on how workable 
this program is and when you can start to begin to even think 
about deployment. That's kind of what I'm hearing, and if I'm 
hearing wrong, I want to be corrected.
    Mr. Stansberry. If you look back about 2 years, and compare 
the path we were on then, the path we're on today, I think you 
can understand some of the difference. We were 2 years ago 
under the ABM Treaty which required us to segregate very 
sharply defense against intercontinental range missiles from 
defense against shorter range missiles. We were on a path to 
deploy PAC-3, we were on a path to deploy what we called 
National Missile Defense.
    With the result of pulling out of the ABM treaty, 
withdrawing from the ABM treaty, it has allowed us to combine 
technologies for defending against missiles of all ranges, 
where we couldn't before because of the treaty. That combining 
of technology led to us creating a single program, a single 
program for development. We backed off from plans to deploy the 
National Missile Defense, because it did not look like, once we 
got an integrated program, it did not look like that National 
Missile Defense architecture was going to be the right now.
    So we don't know yet what will be the right architecture 
for defending the United States from long range ballistic 
missiles. That will depend to a large extent on the quality of 
the results out of the R&D program. And it's simply a fact of 
life that we can't specify those details right now, so we can't 
tell you what the deployed system would be, we can't tell you 
how much it would cost, we can't tell you when it will be out 
there.
    Mr. Shays. Thank you.
    Mr. Tierney, you have the floor.
    Mr. Tierney. I'm astounded. Maybe somebody else gets this 
stuff, but I'll tell you, you're telling me, on the one hand, 
arroyo telling us there are benchmarks and on the other hand 
you're telling us there aren't. It seems that even within the 
research and development program there would have to be at some 
point some specific objectives on what you're trying to 
accomplish with your research and development, there would have 
to be some military requirements with respect to how you're 
going to get there, and there would have to be some time lines 
about when you think reasonably you ought to be there.
    Now, that would be an ORD. And I haven't seen any reason or 
heard any explanation why you wouldn't still have ORDs 
applicable to this program, so that not just General Kadish in 
all his good wisdom and intentions would sit there some day and 
say, I think it's workable, it's on to the next stage. There's 
oversight committees in this Congress and elsewhere that ought 
to be able to look at that and say, general, what are your 
objectives specifically with this research and development 
program, what are your military requirements and what are your 
time lines. We want to take a look at it, I mean, we'll help 
you make that decision whether we want to keep chucking dough 
at this thing or not.
    But just to say, oh, well, we don't want to do that any 
more because it got too complicated, so we pulled back, leads 
me to believe that you're going to keep testing this and 
testing it at $8 billion a year, and if it doesn't get to the 
point where you think it ought to get to the point, well, 
you'll just get another $8 billion and you go on, and if it 
doesn't work then you get another $8 billion and you go on. At 
no point do you chuck it up to the next level, where it says 
you want to go to deployment or whatever, and just keep on 
testing forever.
    And Congress has no ability to say we should stop or we 
should go forward, because you haven't provided us with the 
objectives that you're trying to reach, the military 
requirements or the time tables for everybody to say, it's 
reasonable or it's not reasonable, you're within reasonable 
costs, we should continue on, you're within a reasonable pace 
of the program, you look like you're getting near the 
technology or not.
    Abuse me of that notion if you would.
    General Kadish. Congressman Tierney, I can assure you, we 
have those types of objectives. If you look at the airborne 
laser program to the ground based missile defense program, we 
certainly have the time line objectives and the testing 
objectives and the development objectives laid out, not only in 
our contracts, but in the plans we are developing.
    It is true, however, that the guidance for those are no 
longer the operational requirements documents as we've known 
them, primarily because we need to see what we can do right 
now, rather than setting a bar that may not be reasonable, 
given the fact that we no longer have the ABM Treaty, for 
instance.
    Mr. Tierney. At what point, or how is this committee at 
some point going to say to you, General, we think you've gone 
too far, we think you ought to stop, because you haven't 
reached this particular objective or some other? What do we 
measure by? How do we know if funds are being wasted?
    General Kadish. I'm not sure, I'm at a loss for answering 
that question, except that we have an intense interaction with 
not only the Members but also the staff here in Congress.
    Mr. Tierney. But you're taking away all our tools, General. 
Don't you get it? You're taking away the things by which we use 
to measure, and we used to be able to somehow determine it. 
That's what we had the ORD for, it was helpful for people like 
Mr. Christie, people like this committee and others to sit down 
there and say, OK, there are the objectives, we're looking at 
them, we can make a determination on the military requirements 
and the timeliness.
    General Kadish. We will certainly share those. We have a 
document, for instance, called Technical Objectives and Goals 
[TOG], we certainly will share that with you.
    Mr. Tierney. Well, let's talk about that for a second. You 
have described the so-called TOG, it's a much broader document, 
it gives much broader objectives but broader time lines than 
the previous document. How would you tell me that the TOG 
stacks up with the ORD?
    General Kadish. The TOG, in my view, sets the stage for 
where we are today, an environment that we no longer have a 
demarcation between theater and national, we no longer have an 
ABM Treaty and we're trying to find the best deployable system 
within those guidelines together. Over time, I would expect 
those things to become more specific than they are today and 
actually be turned into capabilities assessment documents that 
military requirements will be specified in.
    So this is a process, not a set of events. And I sympathize 
very strongly with your frustration of changing the way we do 
business, because----
    Mr. Tierney. I don't mind changing business, I'm not glued 
to the past here. What I'm worried about is losing oversight 
capacity. When you tell me you've got this TOG business that's 
going to eventually get to more specific objectives and things 
like that, that doesn't do it for me. Because I've learned 
eventually, some things mean it's too far down the road, when 
you ought to have the information beforehand so you can make 
reasonable assessments.
    Why can't you come to Congress with an ORD with respect to 
this program now? I have not heard yet, other than these broad 
talks with the GAO, we just don't think it's useful to do it 
that way. I would think that you would come in, even within 
just a research and development program, specific objectives 
and what you expect to accomplish within a specific time that 
you expect to get there, and show us what requirements have 
been met and have not been met. And why won't you do that? Why 
do you come up with this TOG instead, which is some broad thing 
down the road a bit, kicking the can down?
    General Kadish. I believe that the approach we're using 
today is a much more flexible approach for the technology we're 
dealing with. Let me give you this example. The operational 
requirements documents that you specify have served this 
country very well. It's done by the military requirements 
community. It's a long, drawn-out process.
    However, it's designed for mature technology. We write ORDs 
today for things like F-22, and I would specify that or 
stipulate that we, next year is 100 years of aviation manned 
flight anniversary. We are still writing operational 
requirements documents for airplanes, F-22, JSF, F and A-18s. 
They are pushing that state-of-the-art. That process is 
designed for mature technology, in my view, that we're pushing, 
pushing to its limits.
    In the case of missile defense, we have a technology--in 
some of our unprecedented systems like SR-71, the Polaris 
program, the Apollo program--in those areas, we knew what our 
main objective was as four Presidents and Congresses since 1991 
have been telling us, we want an effective missile defense. 
Now, how do we get it.
    I believe the processes we're putting in place today will 
handle your concern. But it will be different in the way we're 
trying to push this technology into fruition.
    Mr. Tierney. Well, you're certainly not convincing me, 
General, I'll tell you. First of all, you're telling me now 
that you can't identify to Congress specific tests that you 
intend to conduct along the path here, and when those tests 
will be completed and whether or not----
    General Kadish. I absolutely am saying we can do that, and 
I'll be happy to show you----
    Mr. Tierney. But that's not part of your TOG, though, is 
it?
    General Kadish. Maybe I'm not doing a good job of 
communicating that. But we have a test program laid out in 
great detail, certainly for the next 12 months and beyond. We 
will certainly give you that detail, whether it's classified or 
unclassified. And have, to the majority of the staff that have 
attended our briefings, we have it in great detail. The GAO, I 
believe, has at least eight looks going on in our program for 
various reasons as we speak. We are getting the detail for 
these types of things. So I----
    Mr. Tierney. You're sitting there looking me straight in 
the eye telling me you have set out for us what specific tests 
you plan to conduct on which specific technologies by which 
particular date.
    General Kadish. Yes. I look at that every week.
    Mr. Tierney. And you have given that to Congress in some 
formal form?
    General Kadish. Yes. And I have to go back and check, but 
our testing schedule is available to all those who need to know 
that.
    Mr. Tierney. So the testing and evaluation master plan you 
produced to Congress, we just didn't know about it?
    General Kadish. There is nothing, this formal document 
called the TEMP, we have for various and sundry of these 
elements. We have not reformulated it since January 2nd of this 
year, what we're going to use to go forward. But that doesn't 
mean we don't have specific test plans to go forward and----
    Mr. Tierney. The TEMP was promised to us in June, now we're 
told we're not going to get it until October. Is October still 
the date we're holding for on the TEMP?
    General Kadish. I'd have to go back and check. It's a 
rather laborious process to put that together.
    Mr. Tierney. You're stunning me here a little bit, because 
this whole idea of having an ORD, which you're now telling me 
you can't do, you're telling me you've done everything, you 
just don't call it an ORD any more, that you have specific 
tests, that you're telling us what your objectives are, you're 
telling us what the military requirements are, that you're 
giving us some time lines, and you just renamed it, or you're 
not giving us those details?
    General Kadish. We have much more flexibility in what we're 
doing today.
    Mr. Tierney. That's what disturbs me a little bit here. 
Which part are you flexible? Are you not giving us specific 
objectives, you're being flexible there?
    General Kadish. We have specific objectives in the near 
term plans that we have. What is different in terms of the 
process is that we can make more rapid decisions from an R&D 
point of view without having to go through the process called 
the ORD to change a requirement that particular document 
required. And from that standpoint, it gives us more 
flexibility to shorten our decision cycle times in order to get 
the development done.
    I can give you some examples of what could happen in there, 
they are theoretical. But basically the time lines to get 
relief from a particular requirement, whether it is a big 
requirement or a little requirement, in the operational 
requirements documents, tended to be a lot more difficult than 
what we have structured today.
    Mr. Tierney. What I find in this document, or rules that 
you have, some identification of when the time is that you 
expect you will have a system that is able to identify a decoy 
from a missile satisfactorily for you to say that you want to 
go to production.
    General Kadish. I don't know if I can define an event quite 
that way. I think there will be a body of evidence that we will 
put together as a result of our test program, our analysis 
program, our modeling and simulation program that we will 
present and the weight of the evidence will either say, we can 
handle it or we can't. And we are working on that real hard 
right now. If I had to guess, it would be somewhere in the 2004 
to 2006 range timeframe.
    Mr. Tierney. But you're going to lay that out in some 
document, so that when it comes to that point in time, Congress 
will be able to take an assessment of where we are in relation 
to reaching that goal?
    General Kadish. Our full effort is to get into that 
arrangement. It is a part of our technical objectives and goals 
to do just that.
    Mr. Shays. We're just going to go for a few more minutes, 
then we'll be done.
    Mr. Tierney. Mr. Christie, let me ask you, if we moved away 
from the traditional process of full range production and were 
to adopt this new incremental approach or whatever it is that 
the General is talking about there, what happens to the 
traditional role of evaluation and testing with you?
    Mr. Christie. In this particular situation, where we're 
talking about capabilities-based acquisition, my role will be, 
or as I envision it right now, is giving time lines. At the end 
of each year, in fact, I will be providing to Congress my 
assessment of what's been going on.
    Mr. Tierney. So you're going to get time lines from the 
General as to specific things that can be reached? Is that 
right?
    Mr. Christie. Yes. For example, at the end of 2004, if 
somebody comes forward and says, we think we ought to take a 
hard look at where we are and whether we have a capability that 
might be worthwhile moving on into the next stage----
    Mr. Tierney. You're not going to be looking at it in terms 
of, let's take a look at where we are compared to where we want 
to be, you're just going to take a look at where we are?
    Mr. Christie. At where we are. I will assess what 
capability has been tested, what has been demonstrated in 
testing. And I will make my independent assessment of that.
    That's different than the standard program, I admit, where 
you have an ORD and you have a specific set of requirements set 
out, which determines success or failure.
    Mr. Tierney. So we're testing every kid in grammar school 
all the way through high school every damned year, but we're 
not going to test this program against any benchmarks at all, 
we're just going to occasionally look at it and see whether we 
want to keep slugging up the hill or not?
    Mr. Christie. I will provide to the decisionmaker and to 
the Congress my independent assessment of what the capability 
is as we stand at that point in time----
    Mr. Tierney. Based on what?
    Mr. Christie. Based on the testing.
    Mr. Tierney. You're going to tell us there's a Point A and 
Point B but you're not going to be able to tell us where they 
ought to be or it meets the benchmark or goal, or what----
    Mr. Christie. That's not my job. I don't determine where we 
should be or not be.
    Mr. Tierney. Well, you can determine whether or not they're 
successful as opposed to where they indicated they were going 
to be if they give you those kinds of measure, right?
    Mr. Christie. If in fact I have a set of requirements.
    Mr. Tierney. So now you won't, so you won't be able to do 
that, right?
    Mr. Christie. I will be able to determine what capability 
we have based on the testing to that point.
    Mr. Tierney. But you won't be able to measure it against 
anything, because you're not going to have any measurable 
objectives to look at.
    Mr. Christie. If in fact we don't have a requirement, I 
will not be able to measure it against a requirement.
    Mr. Tierney. Bingo. Right. Nor will anybody else.
    General, let me just wrap this up with some questions here. 
You gave us a chart, or you had a chart in the beginning that 
was up there showing all the overall system, the four different 
elements of the boost phase segment, two different segments of 
the midcourse phase, four more elements of the terminal 
segment. And at the bottom, you factored in some communications 
and countermeasures and sensors and things. How much is this 
going to cost the American people?
    General Kadish. I don't know.
    Mr. Tierney. You don't know? Well, except for the fact you 
don't know, looking at the ground based, the midcourse system, 
it's essentially the same program that is now called an element 
of the larger system. So though we've had cost estimates of 
those before, so just with respect to that system, let's use 
the cost estimates, how much is that aspect of the system going 
to cost us?
    General Kadish. Right now, we are spending somewhere, 
depending on how you measure it, $7.5 billion to $8 billion a 
year to research and develop those types of technologies. At 
some point in that process we will be able to decide whether or 
not we can put an architecture together to be effective.
    So I can tell you that we're spending and costing the 
American taxpayer about 2 percent of our budget, a lot of 
money, but 2 percent of our budget----
    Mr. Tierney. How much in hard dollars?
    General Kadish. Pardon me?
    Mr. Tierney. How much in hard dollars, as opposed to 
percentages?
    General Kadish. About $7.5 billion a year.
    Mr. Tierney. That's for the research.
    General Kadish. That's for the research.
    Mr. Tierney. Now, we've had these programs and the 
midcourse system and the cost estimates before, so using that, 
how much for the research and development issue, if we decide 
to go to development on this?
    General Kadish. I'm not sure I understand your question.
    Mr. Tierney. Well, we had, before we lumped all these 
things together, we had cost projections of what this ground 
based system was going to cost us. So I'm asking you, what is 
that system going to cost us, research and development through 
to completion?
    General Kadish. At this point, I know what we will spend on 
it in terms of the budget we have programmed. But I don't know 
to completion. We're trying to define what complete means in 
this kind of an architecture. We have not reached that point 
yet.
    So given that we haven't defined it, it's hard for us to 
estimate it. But there are some characteristics we could talk 
about. It will be expensive to continue. But in context of 
affordability, we're spending and programmed to spend about 2 
percent of our DOD budget on this effort.
    Mr. Tierney. How are we going to know, from the way that 
you've now designed this program, how is Congress going to know 
at some point that we're spending too much on this system, or 
too little, or just enough?
    General Kadish. I think as we go through the authorization 
and appropriations process with the entire Congress that as we 
reveal our results every year, we'll either have great success 
and be able to move in an affordable way or great frustration, 
such that we'll be shut down. That's the normal way that 
programs work.
    Mr. Tierney. No, normally they work because you have laid 
out some idea of specific goals and specific military 
requirements and specific time lines and we can measure against 
that. That's the way they normally work.
    General Kadish. I can assure you, when we put the budget in 
front of Congress, we have a very specific set of details on 
what we're going to spend that money on, and we're held 
accountable for that. When the appropriations and authorization 
process review last year's results, what we plan on doing this 
year, and then the 5-year defense plan, that's the type of 
thing we've got before us.
    Mr. Tierney. Thank you.
    Mr. Shays. Mr. Kucinich, I will have two basic, unrelated 
questions to ask, and Mr. Kucinich just has a few.
    Mr. Kucinich. Isn't it true, General, that there are many 
operational and technical reasons why it's much more difficult 
to build a National Missile Defense System than to build an 
effective offense?
    General Kadish. We've been building an effective offense 
for over 50 years. We've just begun to build a defense. So from 
that standpoint, we are at a disadvantage.
    Mr. Kucinich. Isn't it true that the attacker has a strong 
advantage because the defense must commit to a specific 
technology and architecture before the attacker does?
    General Kadish. Can I take that one for the record? I'm not 
sure----
    Mr. Kucinich. OK, isn't it true that the defense will 
choose and then deploy hardware whose general characteristics 
will be known to the attacker?
    General Kadish. The general characteristics, yes. But they 
would have to be very wary of the capability we bring to bear.
    Mr. Kucinich. So it's a good chance the offense is going to 
know the defense.
    General Kadish. There's a good chance that the defense will 
know the offense.
    Mr. Kucinich. But it's more likely that the offense is 
going to know the defense.
    General Kadish. In the military history, the way I read it, 
the supremacy of the defense and the offense have changed from 
time to time. In the Middle Ages, the defenses reigned and to 
get more modern times, the offense has reigned.
    Mr. Kucinich. Isn't it true the defense will not know with 
certainty what countermeasures the attacker would use?
    General Kadish. And the attackers would not know with 
certainty what our capability is.
    Mr. Kucinich. You're giving us a lot of insight into the 
way you view this. It's very valuable, General.
    I want to say that if we have very few parameters by which 
to judge success, and if there is no way for the Congress to 
effectively determine if you're over budget in any of these 
components, if there is no final goal to which the program is 
striving, and at the same time we find the role of Congress as 
far as oversight being undermined here, I'm just wondering, how 
does Congress perform its Constitutional duty to oversee this 
agency if there are no cost estimates, performance indicators 
or timelines available to us? You tell us, how do we do that?
    General Kadish. Congressman, I believe that they are 
available. They're just not in the character of long term 
programs that we tend to be unrealistic in our objectives to 
try to meet. So I believe we are giving that kind of detail, 
and I'd be happy to come and spend some time with you and go 
over this, if that will help.
    Mr. Kucinich. I'll conclude, Mr. Chairman. I think, what 
I'd be happy is if you'd let the American people know more 
about what's going on here, instead of just individual Members 
of Congress.
    I want to go back to one question. What does this cost? 
We've spent $70 billion as a Nation pursuing this fantasy of 
hitting a missile with a missile. What is this going to cost? 
We've already spent, Mr. Chairman, the taxpayers have spent $70 
billion. Whether they're calling it Brilliant Pebbles or Star 
Wars or any of these other ideas, when is enough going to be 
enough, General? Should the taxpayer expect to give you a blank 
check? Is that what you're asking for?
    General Kadish. I'm not asking for a blank check. I'm just 
trying to do what four Presidents and Congresses since 1991 
tried to ask us to do.
    Mr. Kucinich. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    I appreciate all three panelists. Obviously, General 
Kadish, we had more questions for you. So Dr. Stansberry, 
you'll probably go back and say, why was I there, except it was 
important that you be a resource for us. I thank you as well, 
Mr. Christie.
    For me, I am going to evaluate this program on whether each 
test becomes more realistic. If we are not able to have a 
system that works, that's not going to be realistic, then I'm 
going to begin to wonder if we're going to be able to do what a 
number of us in Congress want to do. We haven't asked you about 
the laser, we haven't asked you about other options. So there's 
obviously things we could have discussed.
    We will appreciate getting, for example, a listing of all 
the different variables that will ultimately tell us when we 
have a realistic system. And I would just quickly like to close 
with these two unrelated questions. I would like to know, what 
is the operational impact to missile defense of the delays in 
the spaced based infrared system load, the so-called Sabers Low 
program. What is the operational impact of this to the success 
of the program?
    General Kadish. The Sabers Low intention was to have it as 
a space based sensor that would contribute to tracking and 
discrimination capability. At this point, we had always looked 
at the 2010, 2011 as being the point at which we might have an 
operational constellation. We have restructured that program, 
and right now we are looking to put early satellites into our 
test bed in the Pacific in the 2006, 2007 timeframe, if that's 
possible. That will help us decide what the future impact will 
be on Sabers Low.
    Mr. Shays. Thank you. One last question. What upgrades are 
needed for the sea based program to have the system operational 
in an emergency situation, the launch of a ballistic missile 
against the United States? How long before these upgrades are 
completed?
    General Kadish. The current standard missile three has very 
limited autonomous capability against long range missiles. It 
was not designed for that. We believe, however, there are early 
looks without treaty restrictions we are dealing with, that if 
we use offboard sensors, we may be able to improve that 
performance. But we don't know that yet. And the specific 
improvements would come out of that activity. We are looking at 
putting it in as a part of our program in the coming years. But 
we have not done so yet.
    Mr. Shays. General, Mr. Christie, Dr. Stansberry, thank you 
very much for being here. Congress has mandated this program 
continue. Obviously it's going to have to make sure we 
constantly evaluate it. It is going to be interesting to see 
how we do it. I almost feel the analogy is research on cancer. 
We're doing research on a disease and we're not quite sure what 
it's going to cost us. Ultimately, we're hoping that we're 
going to have a system that works. I don't think anyone quite 
now can guarantee that it will work, frankly.
    But I hope and pray we don't see a vote in Congress that 
actually votes to move forward with the program until we know 
it works. I have a feeling that you want to make sure the 
system works as well, before we deploy. So I thank you all very 
much.
    Is there any question that we should have asked that you 
would like to put on the record, any point you want to put on 
the record before we leave?
    General Kadish. No, Mr. Chairman.
    Mr. Shays. Thank you very much for your patience.
    [Recess.]
    Mr. Putnam [assuming Chair]. The committee will reconvene 
for the purpose of seating panel two. Mr. Robert Levin, 
Director of Acquisition and Sourcing Management, U.S. GAO. He 
is accompanied by Barbara Haynes. Ambassador David Smith, the 
chief operating officer for the National Institute for Public 
Policy. Dr. William Graham, chairman and chief executive 
officer, National Security Research, Inc. And Mr. Eric Miller, 
senior defense investigator, the Project on Government 
Oversight.
    As you know, we swear in witnesses in this subcommittee. So 
if you would please stand and raise your right hands.
    Do you solemnly swear or affirm that the testimony you will 
give before this subcommittee will be the truth, the whole 
truth and nothing but the truth?
    [Witnesses sworn.]
    Mr. Putnam. Let the record reflect that the witnesses 
responded in the affirmative.
    With that, we will recognize Mr. Levin for your opening 
statement. Welcome to the subcommittee.

   STATEMENTS OF ROBERT E. LEVIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, U.S. GENERAL ACCOUNTING OFFICE, 
     ACCOMPANIED BY BARBARA H. HAYNES, ASSISTANT DIRECTOR; 
 AMBASSADOR DAVID J. SMITH, CHIEF OPERATING OFFICER, NATIONAL 
    INSTITUTE FOR PUBLIC POLICY; WILLIAM R. GRAHAM, FORMER 
 DIRECTOR, OFFICE OF SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE 
 OFFICE OF THE PRESIDENT; CHAIRMAN AND CEO, NATIONAL SECURITY 
 RESEARCH, INC.; AND ERIC MILLER, SENIOR DEFENSE INVESTIGATOR, 
              THE PROJECT ON GOVERNMENT OVERSIGHT

    Mr. Levin. Thank you, Mr. Chairman. I am pleased to be here 
today to discuss our review of the Airborne Laser. With me is 
Barbara Haynes, who is GAO's Assistant Director responsible for 
our missile defense work.
    I think it's important to note how important the ABL is, 
the Airborne Laser, because the system, if successfully 
developed and fielded, will provide some capability to destroy 
enemy ballistic missiles, such as Scuds, soon after their 
launch. The ABL is also important because we are investing a 
lot of the taxpayers dollars in it. DOD has already received 
$1.7 billion for ABL development and projects that it will need 
another $2.7 billion for that development over the next 5 
years.
    My comments today are largely based on our report on the 
Airborne Laser that you requested, Mr. Chairman, and that has 
been released today. I will make five main points.
    Point No. 1. The Missile Defense Agency faces huge 
technical challenges in developing the Airborne Laser. You saw 
that video earlier today of targets being intercepted. You 
would not be able to see an ABL system trying to intercept a 
target. It is not advanced enough for that yet.
    When MDA took over responsibility for ABL from the Air 
Force last year, the program was 50 percent over budget and 4 
years behind schedule. We found that the Air Force badly 
underestimated the complexity of the engineering tasks at hand 
and therefore misjudged the time and money that the program 
would need. Critical technologies that the system depends on 
remain immature. For example, the optics, the mirrors and 
windows that focus and control the laser beam and allow it to 
pass safely through the aircraft are at a technology readiness 
level of four. At TRL4, engineers have shown that the 
technology is feasible, but have not shown whether it will have 
the form, fit and function required in an operational system. 
This gets at the point about realism in testing.
    MDA has a long way to go to get all the critical 
technologies to a TRL7, the level where it is demonstrated that 
components can work together as a system in a realistic 
environment. Our work over the years has shown that TRL7 is 
where it is appropriate to end technology development and begin 
system integration.
    Point No. 2. You wanted us to comment on MDA's new strategy 
for developing the Airborne Laser. As you heard earlier, in 
January 2002, the Secretary of Defense directed MDA to quickly 
develop elements of the Ballistic Missile Defense System. In 
response to Secretary Rumsfeld's direction, MDA put in place a 
new requirement setting process. In the past, the military 
services would set requirements and systems developers would 
then try to build the technology to meet them. Under MDA's new 
strategy, the agency and the services now have the flexibility 
to match requirements with available technology. This is one of 
the knowledge based practices characterizing successful 
programs.
    However, I want to emphasize that before the agency decides 
to go from technology development to system integration, it 
must freeze the requirements. At that point, there should be a 
match with available time, technology and money for developing 
and producing the system. The system developer can then begin 
designing a system, knowing full well what the requirements 
must be and what must be met.
    Point No. 3. While MDA's new strategy incorporates much 
that is positive, we recommend in our report that the agency 
adopt another knowledge based practice. That practice is the 
establishment of decision points and associated criteria for 
separating the acquisition phases, the technology development, 
system integration, system demonstration, and production. 
Without such decision points and criteria in place, MDA risks 
beginning new and more costly activities before it knows how 
much time and money will be required to complete them and 
whether additional investment in those activities is really 
warranted, the kinds of points Mr. Tierney was raising.
    Mr. Chairman, we were encouraged to learn last week that 
MDA is indeed considering how to fit such decisions points and 
criteria into the acquisition process for the Airborne Laser 
and other missile defense systems. They just haven't done it 
yet.
    Point No. 4. You wanted us to comment on the role of the 
Operational Test and Evaluation office. Regarding OT&E's role, 
because MDA has not begun system level testing of the ABL 
system, operational test officials have had little involvement 
to date in overseeing test activities. However, they have begun 
working with MDA to construct a developmental test plan for 
missile defense overall. It hasn't been completed yet, as we 
heard earlier today.
    At a later time, they expect to work on the test plans for 
each specific element, including the Airborne Laser. OTA has 
the authority to provide advice on that kind of test plan, but 
not to actually approve them.
    Point No. 5, finally, you asked me to comment on changes 
and test plans in the absence of the Anti-Ballistic Missile 
Treaty restrictions. MDA can now test the ABL against longer 
range targets. Such testing would have been prohibited under 
the Treaty. MDA says, however, that it won't consider longer 
range targets until after it tests the ABL's ability to shoot 
down shorter range targets in 2004.
    Mr. Chairman, in conclusion, I would like to stress that we 
think MDA has taken some positive actions, but we recommend 
that it adopt the practice of establishing decision points, and 
associated criteria, to separate the acquisition processes and 
phases. That ends my statement, and I would be happy to answer 
your questions.
    [The prepared statement of Mr. Levin follows:]
    [GRAPHIC] [TIFF OMITTED] 81892.027
    
    [GRAPHIC] [TIFF OMITTED] 81892.028
    
    [GRAPHIC] [TIFF OMITTED] 81892.029
    
    [GRAPHIC] [TIFF OMITTED] 81892.030
    
    [GRAPHIC] [TIFF OMITTED] 81892.031
    
    [GRAPHIC] [TIFF OMITTED] 81892.032
    
    [GRAPHIC] [TIFF OMITTED] 81892.033
    
    [GRAPHIC] [TIFF OMITTED] 81892.034
    
    [GRAPHIC] [TIFF OMITTED] 81892.035
    
    [GRAPHIC] [TIFF OMITTED] 81892.036
    
    [GRAPHIC] [TIFF OMITTED] 81892.037
    
    [GRAPHIC] [TIFF OMITTED] 81892.038
    
    [GRAPHIC] [TIFF OMITTED] 81892.039
    
    Mr. Putnam. Thank you very much.
    At this time, we will take testimony from Ambassador David 
Smith, the COO of the National Institute for Public Policy. 
Welcome.
    Ambassador Smith. Thank you, Mr. Chairman. It's a pleasure 
to be here and to see you again, sir. It's an honor to appear 
before this committee, speaking on behalf of President Bush's 
missile defense program, to defend America and its overseas 
forces, its allies and its friends.
    I should stress that this program really is very much a 
part of homeland defense. On September 10th, I would have 
argued that missile defense was absolutely essential, because 
unchecked, ballistic missiles would prove alluring to potential 
adversaries, undermine non-proliferation, confer asymmetric 
geopolitical advantages, and eventually develop into combat 
capabilities that could threaten U.S. military mission success.
    As a former intelligence officer, I can tell you that if we 
look at the situation it's not like rejecting the old Soviet 
threat. It's not that neat. We understood the Soviets a lot 
better. So we don't have that kind of thing.
    Do we know who our potential adversaries are and what 
they're doing? You bet we do. The trend is toward more missiles 
in the hands of more countries with greater range, greater 
accuracy, multiple launch modes, and a variety of specialized 
weapons.
    What General Kadish has to do is essentially plan against 
what is essentially a rolling composite. That doesn't mean he 
has no information or that he does not know what he is planning 
against. It means that it's just a heck of a lot harder to do 
than it was against the old Soviet Union.
    Can we defend against ballistic missiles? You bet we can. 
When was the first time an ICBM was shot down by a defense 
interceptor? In 1962, Nike X shot down an Atlas ICBM. Now, 
you've seen in General Kadish's video another few of the more 
recent successes. Am I surprised that we're walking before we 
run? Absolutely not. When I was in military service, they took 
me out to a rifle range and told me to fire an M-16 at a 
stationary target before they let me out anywhere else with 
that rifle. That is exactly how you're going to do that.
    If you were any more successful, frankly, you'd kind of 
wonder what he was up to. Of course there are going to be a few 
so-called failures. There's really no such thing as a failed 
test.
    Now, tragically, everything I have said about why we need 
to do missile defense was also true on September 12th. Yes, Al 
Qaeda has been dominating the headlines. They employed a 
particular kind of asymmetric strategy, which involved turning 
an ordinary item, an airliner, into a cruise missile carrying 
weapons of mass destruction. But I assure you that other 
adversaries will also use asymmetric strategies, and they will 
use different means. Ballistic missiles remain attractive to 
many.
    I'd like to quote Senator Joe Lieberman, who spoke 2 days 
after September 11th, saying, ``September 11th certainly shows 
we're vulnerable to more than just missile attack. But we're 
vulnerable to missiles, too.'' That strikes me as eminent 
common sense.
    The choice of which threat warrants our investment and 
which one we can ignore is simply not ours. We must not delude 
ourselves. Will this be costly? Yes, it will. But as Senator 
Arlen Specter remarked also a few days after September 11th, we 
do have the resources to do both. That is exactly what 
President Bush has set out to do.
    Now, one important step was withdrawing from the ABM 
Treaty. The fact is, the cold war ABM Treaty prohibited any 
kind of defense of the territory of the United States, any 
kind, including a single site in North Dakota. It precluded 
development and testing of anything but a fixed land based 
system, and the endless diplomatic hashing of this with the 
Russians simply preserved mutual assured destruction long 
beyond its due.
    Now we need to proceed with a normal testing pattern. We're 
already butting up against it, there's nothing that has to be 
done artificially. Something as simple as turning on the SPY-1 
radar on an Aegis ship during a missile defense test was 
precluded by the ABM Treaty. We are now able to do that.
    Given President Bush's objectives in getting out of the ABM 
Treaty, the Secretary of Defense's guidance to the Missile 
Defense Agency seems appropriate. First, a limited defense of 
the United States in the near term and the defense of our 
overseas forces, allies and friends. A layered defense, ready 
as soon as practicable, and an early capability if necessary. 
This restores three essential points that had been missing from 
our missile defense program for the earlier 8 years, globality, 
layering and evolution. Evolution is absolutely essential to 
get out and stay out ahead of the threat. It is the only way we 
are going to keep our potential adversaries from acquiring 
missiles, is to tell them that they cannot succeed. It is also 
essential to adapt to a very complex evolution of the threat.
    When something happens and we have to ask General Kadish 
what it is that he has, what is he capable of doing tomorrow 
morning, the American people will want some kind of a 
capability rushed into that situation, much as we did with the 
not quite ready for prime time PAC-2 during the Gulf war. That 
is the measure of success, is against the capability, it's the 
capability against the need. The American people will not be 
looking for an ORD which matures 2 years later.
    This kind of evolution requires the capability based 
approach that General Kadish describes. How many calls for 
change have we had in our acquisition system? How many in this 
body have decried that it takes two decades from concept to 
field a military system?
    I think this can all be done with congressional oversight 
and DOD oversight, as General Kadish and Dr. Stansberry and Mr. 
Christie outlined earlier, a system for oversight is absolutely 
possible. That effective oversight extends to the subject 
countermeasures that DOD has, in my view, appropriately 
classified. We do not want to discuss what we know and what we 
do not know about countermeasures. We do not want to discuss 
what we have tested. We do not want to discuss vulnerabilities. 
We would not ask, for instance, the director of the F-22 
program or the joint strike fighter or any of our programs to 
come and talk about the vulnerabilities of those systems, even 
in their earliest stages, because that gives an awful lot of 
information out there. This information is available to the 
Congress if the Congress wants it, in closed session with 
appropriate safeguards.
    And the fact is, one of those systems that General Kadish 
is talking about may just have to be out there a little sooner 
than anyone expected. He is charged with providing an early 
capability if necessary. No one expected PAC-2 to be in the 
Middle East when it was, and there it was, and it did its job 
to the best of its ability at that time.
    Mr. Chairman, thank you very much. That sums up what I had 
in my written testimony and I would be pleased to take any 
questions or any discussion my remarks have prompted. Thank 
you.
    [The prepared statement of Ambassador Smith follows:]
    [GRAPHIC] [TIFF OMITTED] 81892.040
    
    [GRAPHIC] [TIFF OMITTED] 81892.041
    
    [GRAPHIC] [TIFF OMITTED] 81892.042
    
    [GRAPHIC] [TIFF OMITTED] 81892.043
    
    [GRAPHIC] [TIFF OMITTED] 81892.044
    
    Mr. Putnam. Thank you, Mr. Ambassador.
    At this time we recognize Dr. William Graham, chairman and 
chief executive officer of the National Security Research, Inc. 
Welcome.
    Mr. Graham. Thank you, Mr. Chairman, distinguished members 
of the subcommittee, and thank you for inviting me to testify 
on my views concerning the challenges and the opportunities 
that are now available in the missile defense area to enhance 
our national security and our homeland defense.
    I am testifying today on my own behalf, and not as a 
representative of any organization. However, I would like to 
state for the record that after I submitted my prepared 
statement, I determined that National Security Research, the 
company for which I am CEO and chairman, does some work in the 
area of missile defense and has a current subcontract that 
provides advice to a prime contractor in analyzing ballistic 
missile threat characteristics.
    The prospective threat to our security from long range 
ballistic missiles, such as the North Korean Taepo-dong 2, is 
generally understood. The United States is developing missile 
defenses to deal with such a threat. However, this alone would 
be akin to locking the front door and assuming the house would 
be safe. The United States, in fact, is also vulnerable to 
attack from short range missiles. This might seem strange, 
because we're a continent isolated by two large oceans. But 
because this vulnerability has not received the same attention 
of long range ballistic missiles, I would like to spend a 
moment today addressing that threat. And I will characterize 
the threat in my statement and we can perhaps talk about 
approaches to dealing with it in the question and answer, if 
you wish. There are discussions of those approaches in my 
testimony.
    But we also need to make sure the back door is locked 
before we can adequately ensure the safety of the homeland 
against ballistic missile threats. One of the worst things we 
can do is leave ourselves completely undefended from any 
threat, because that in fact is provocative and an invitation 
for others to use that as a means to attack us.
    The termination of the ABM Treaty last month has finally 
opened the opportunity to develop effective missile defense 
capabilities for those of us who have waited for the time to 
come when a full range of engineering options and missile 
defense could be explored. And I have testified in Congress for 
about 10 years on the need for terminating that Treaty. So my 
theme here is quite consistent.
    Gone are the constraints, finally, in the United States 
that were drafted for the security environment of the 1960's 
and 1970's. This freedom permits the United States to prepare 
for threats to our security from most traditional adversaries 
that may threaten us far away and now to prepare for threats 
that are more ambiguous and possibly within a short range of 
our soil, as I will describe.
    With a robust missile defense program, developed under the 
management of the Missile Defense Agency and under the policy 
and guidance of the Secretary of Defense, with adequate 
funding, the United States could have the means to defend the 
homeland from a range of missile threats in the future. 
Secretary Rumsfeld in his memorandum of January 2nd has 
established that the Missile Defense Agency should establish a 
single program to develop an integrated system. This was a key 
priority of the program. The company documentation states that 
among the top priorities is deployment of systems as soon as 
practicable.
    The Patriot Advanced Capability-3, the PAC-3 system, which 
serves as our first line of defense against short range 
missiles, is highlighted as an example of this initiative, the 
first priority listed for missile defense to be used to defend 
U.S. deployed forces, allies and friends. With the barriers of 
the ABM Treaty removed, the newly formed Missile Defense Agency 
is now able to explore the role of defense technologies to 
defend homeland against all ballistic missile threats, both 
long range and short range.
    Now let me briefly describe a short range threat to the 
United States. While the tragic events of September 11th have 
understandably focused our national security attention on the 
safety of our air space, other vulnerabilities to our homeland 
are at least as compelling. Though a much beleaguered and 
highly scrutinized air traffic control system exists today, 
there is no comparable, comprehensive open ocean ship tracking 
and identification system that exists for the United States. We 
do have a 200 mile economic zone, which gives us control over 
fisheries and other resources in that zone. But our actual 
jurisdiction over territorial waters for vessels extends only 
to 12 miles from our shoreline. Even if we did have complete 
control of the 200 mile economic zone offshore, there exists 
thousands of missiles in the world today of the Scud class, 
Scud A, B, C, D, at least, and several of those, particularly 
later models, could be launched from a ship outside the 
economic zone, launched from a ship and still hit our 
coastline.
    As the report of the Commission to Assess the Ballistic 
Missile Threat to the United States noted 4 years ago, sea 
launch of shorter range ballistic missiles poses a direct 
territorial threat to the United States sooner than if a 
country waited to develop an ICBM for launch from its own 
territory. Sea launching could also permit it to target a 
larger area of the United States than would a missile fired 
from the home territory, at least initially. The national 
intelligence estimate, published by the National Intelligence 
Council in December 2001, titled Foreign Missile Developments 
and Ballistic Missile Threat through 2015, bolsters this 
argument. The NIE states in part, using such a sea platform 
would not pose major technical problems. The simplest method 
for launching a ship borne ballistic missile would be to secure 
a transporter erector launcher on board a ship and launch the 
missile from the TEL.
    The NIE disclosed that several countries are technically 
capable of developing a missile launch mechanism to use from 
forward based ships. A number of countries are known to be 
developing the capability to launch from the sea. The 
Commission report mentions India specifically in this regard. 
In addition, press reports of the same timeframe has the work 
of the Commission tell of Iran test firing a short range 
surface to surface ballistic missile from the Caspian Sea in 
the spring of 1998.
    However, we don't have to go that far to find evidence of 
how easy it is to get and ship a Scud missile. A gentleman 
named Jacques Littlefield proves that not only can nations 
obtain them, but essentially anyone can. The Los Angeles Times 
reported in September 25, 1998, that Mr. Littlefield had 
imported a Scud missile with its launcher into California on 
September 2nd. The fully operational Scud-B SS-1C, complete 
with a guidance system and engine, was manufactured in the 
former Czechoslovakia in 1985. The only critical parts missing 
were the fuel and a warhead. The Bureau of Alcohol, Tobacco and 
Firearms, U.S. Customs and the U.S. Navy launched an 
investigation as to how the missile could have entered U.S. 
ports without more flags being raised. Littlefield said he 
wanted the Scud for his weapons collection. Official reports 
indicate that the Government believed him, as he had already 
imported another Scud from the Czech Republic 3 months earlier. 
And by the way, it is not apparent that these are on shipboard 
when they are shipped. They can easily be covered or concealed 
as cargo containers or other forms of cargo.
    The possibility of a group or even an individual with 
ambitions of a maleficent nature covertly sailing a ship or a 
barge with a missile launch platform into targeting range of 
key population centers in the United States is certainly 
practical. Lulling ourselves into thinking that such a surprise 
attack by one or a few sea launch ballistic missiles against 
U.S. coastal cities, even if only armed with high explosive 
warheads, is so unlikely as to be negligible is reminiscent of 
the U.S. attitudes prior to Pearl Harbor in December 1941, and 
the Japanese attitudes prior to Jimmy Doolittle's raid on Tokyo 
in April 1942.
    About half the U.S. population lives in cities adjacent to 
coastal territories. And therefore, a very substantial part of 
our population could be vulnerable to such an attack. I believe 
that the Missile Defense Agency today has programs in various 
states of development that can deal with such a threat, but 
dealing with them may well involve placing PAC-3s, THAADs or 
other missile defense systems on our coastal territories, as 
well as having them available to deploy overseas, and could 
also involve our Aegis fleet defense ships, which could be in 
our harbors and our offshore territories to provide further 
defense, as eventually could the Airborne Laser, if that 
program is brought to successful conclusion.
    I will be glad to discuss these capabilities further with 
you in the testimony. But I believe my time is up. Thank you.
    [The prepared statement of Mr. Graham follows:]
    [GRAPHIC] [TIFF OMITTED] 81892.045
    
    [GRAPHIC] [TIFF OMITTED] 81892.046
    
    [GRAPHIC] [TIFF OMITTED] 81892.047
    
    [GRAPHIC] [TIFF OMITTED] 81892.048
    
    [GRAPHIC] [TIFF OMITTED] 81892.049
    
    Mr. Putnam. Thank you, Dr. Graham. At this time, we 
recognize Mr. Eric Miller, senior defense investigator for the 
Project on Government Oversight and I believe a former Tampa 
Tribune reporter, correct?
    Mr. Miller. That's correct.
    Mr. Putnam. Welcome.
    Mr. Miller. Thank you.
    Good afternoon, Mr. Chairman and members of the committee. 
Thank you for this opportunity to comment on the restructuring 
of the Nation's missile defense program.
    As a politically independent watchdog group, the Project on 
Government Oversight takes no position pro or con on missile 
defense. We nonetheless have serious concerns that recent 
missile defense program changes are not in the best interests 
of our Nation's security or the U.S. taxpayer. Today we are 
releasing our report, ``Big Dreams Still Need Oversight: 
Missile Defense Testing and Financial Accountability Are Being 
Circumvented,'' indicating that the testing oversight of the 
Missile Defense Agency could signal a step backward to the 
often misguided acquisition practices of the 1970's and the 
early 1980's.
    Mr. Chairman, at this time I would like to offer our report 
for the record.
    Mr. Putnam. Without objection, it shall be inserted into 
the record at this point.
    Mr. Miller. Thank you.
    As we rush to deploy the missile defense program, we would 
be wise to consider the lack of financial accountability 
plaguing a growing number of private corporations, public 
corporations, actually. Though the Pentagon has increasingly 
been encouraged to conduct business more like the private 
sector, in this case we must learn from these mistakes, so 
taxpayers are not victimized, as many shareholders have been.
    Foremost among our concerns with the missile defense 
program is the fact that Defense Secretary Rumsfeld's January 
directive opens the door for a broader use of special 
contractual agreements called other transactions. These types 
of contracts waive many of the financial oversight requirements 
of typical contracts for goods or services, with the aim of 
attracting so-called non-traditional defense contractors. Other 
transactions allow contractors to avoid taxpayer protections 
and transparency requirements in the Federal Acquisition 
Regulation and cost accounting standards. These important 
protections give the Federal Government the information it 
needs to ensure fair and reasonable contract prices. Another 
transactions contract on the other hand can even exempt a 
defense contractor from undergoing Government audits or 
providing a Federal contracting agency and Government auditors 
with access to the contractor's pertinent records.
    Unfortunately, two other transactions already have been 
awarded the Missile Defense Agency since their own memo was 
penned. Both went to traditional, large contractors when Boeing 
and Lockheed Martin Systems were awarded sole source, other 
transaction agreements. Obviously, these are not the intended 
targets of those agreements.
    We are also concerned with changes in access by the Office 
of the Director of Operational Tests and Evaluation. Prior to 
the establishment in 1984 of the Independent Pentagon Testing 
Office, far too many overpriced and under tested weapons 
systems were being placed in the hands of our fighting men and 
women. We want to remind you today of some of those notorious 
past weapons failures in the hope that history won't repeat 
itself.
    We're concerned by a new buy now, fix later acquisition 
chapter could be in the making. No doubt acquisition officials 
at the Pentagon would love for Congress and the public to 
forget notorious weapons like the Sergeant York air defense 
gun, a mobile, armored anti-aircraft system that was approved 
for production in 1980, before it was battle tested. Nearly 5 
years later, after more than $1 billion of public investment, 
the Sergeant York gun became such an embarrassment that it had 
to be canceled.
    We also hope you don't forget the story of the Bradley 
fighting vehicle, an armored troop carrier and scout that was 
approved for full rate production in 1979, even though the 
Pentagon knew at the time that the vehicle's armor couldn't 
protect its occupants from hostile fire. Upgrades and design 
fixes to the Bradley have since been very costly.
    We'd also like to jog your memory about the fast track 
procurement of the B1B bomber, a very costly aircraft rushed 
into production during the late 1980's, despite catastrophic 
engine blade failures, munitions limitations and electronic 
warfare deficiencies, and the C-5 cargo aircraft, a financial 
boondoggle once dubbed the notorious granddaddy of Pentagon 
overruns.
    In all of these examples, production decisions were made 
before DOT&E was created, foreshadowing the potential trouble 
of returning to a system before independent testing. The bottom 
line of all this is that thorough testing should not be 
sacrificed in the interest of expediency, nor should financial 
contracting transparency be abandoned merely to decrease 
paperwork. The lessons of history tell us that when this 
happens, the Nation's fighting men and women, as well as the 
taxpayers, become the losers.
    POGO is a solid supporter of rigorous independent 
operational testing. We are well aware of the Director of 
Operational Test and Evaluation's numerous accomplishments over 
the past 17 years. We want the Director to continue to provide 
much needed objective analysis. But we are concerned that a new 
area of secrecy at the Missile Defense Agency will cut him out 
of the loop on some important aspects of early testing.
    Right now, the Director, Mr. Christie, says he has an 
amicable relationship with the missile agency, and that he's 
confident it will continue. But what happens if that 
relationship sours? What happens if he gives the program a bad 
report card, or presses too hard for data that the agency 
doesn't want to relinquish? History has shown that such 
relationships can quickly go south when the facts
don't fit the Pentagon story. The Office of the Director of 
Operational Tests and Evaluation should not be required to 
negotiate the nature of information it is provided by the 
missile defense program managers. The Office should have 
unfettered access and be an active participant in early testing 
of missile defense systems.
    Than you for inviting me to testify before the 
subcommittee. I am happy to answer any questions.
    [The prepared statement of Mr. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] 81892.050
    
    [GRAPHIC] [TIFF OMITTED] 81892.051
    
    [GRAPHIC] [TIFF OMITTED] 81892.052
    
    Mr. Putnam. Thank you very much.
    Looks like it's just you and me, babe, we're going to give 
you 10 minutes and start us off right.
    Mr. Tierney. I don't have to take that long. Mr. Miller, I 
want to thank you for the work that you've done and your 
organization has done on that. I was also disturbed to listen 
to Mr. Christie play what I think is a lapdog, basically, to 
the Pentagon here. I was very disturbed to hear him say that he 
hasn't got all the information he needs yet, but he hopes he's 
going to get it and thinks maybe he will, that he understands 
he has nothing to measure against performance, but that he's 
going to take a look at what's there.
    Can you give us a little bit broader definition of what it 
is that you think the importance of the Office of Testing and 
Evaluation for early involvement in these programs, and what 
that means to the overall savings of money to people, but also 
savings of lives?
    Mr. Miller. I realize that development of testing is the 
purview of the Service. But it's very important that the 
Operational Test and Evaluation, the independent tester be 
involved early on to sort of get a system ready for testing to 
find out if it can be tested. There are frequent problems, 
anything from a system not really being ready to be tested to 
not having enough, say, if you were going to test an aircraft, 
there may not be enough aircraft to adequately test it.
    So the Director of Operational Test and Evaluation needs to 
be involved, needs to monitor what's happening with the 
program, so that he knows what he can look at when he is ready 
to test it to give it sort of its final exam.
    Mr. Tierney. When Mr. Christie tells us he's going to get 
some of his information from this new advisory committee that 
General Kadish has set up, essentially I would suggest that 
isn't enough, that his people have to be right in there, 
getting the raw data and watching the tests first hand in order 
to be fully informed. Would that be accurate?
    Mr. Miller. Yes. What concerns us is that there shouldn't 
even be a need for this paperwork to go between the offices, 
that Mr. Christie, we believe by law, has a right to all the 
testing data. And sometimes, even if he's getting what he's 
asking for, there might be some things that he doesn't know 
about, and it might come back to actually jeopardize the 
outcome of the weapons system if he doesn't know what to ask 
for.
    Mr. Tierney. You mentioned a minute ago that one of the 
problems that we have on this is that if the relationship falls 
out or the military just decides that they're not going to 
share something with him, one of the reasons Mr. Coyle looked 
into the report was that the President specifically asked him 
to do an evaluation at that point in time. He did an evaluation 
that was extensive, and came up with 50 recommendations of 
things that needed to be changed.
    I suggest, Mr. Chairman, that may have been the stimulus 
for this entirely new revamping of the system to where now 
there won't be any more evaluation at that stage, where we've 
got a whole new nomenclature for what's going on, and we're not 
getting those criticisms addressed and everything is going to 
be classified so there won't be any more criticism. That's the 
reason concern, at least from this one Member, if it goes 
forward on that. I think that Mr. Christie makes a good point 
in his testimony and in his report, if you look at it, as to 
what can happen if we don't maintain the rights of Mr. Christie 
to step in there at an early stage and see what's going on, and 
the obligation of Congress to look at that from time to time 
against some benchmarks that can help us evaluate it.
    It's one thing, Mr. Miller, maybe you can tell us, are you 
aware of a program in the past where you've had no benchmarks 
to evaluate anything against at all, it was just basically take 
a look at it from time to time, and if we like where it's 
going, as a Pentagon, we'll keep on going?
    Mr. Miller. I can't recall any major weapons system 
program. I know there are a lot of experimental types of 
programs where they don't even have independent operational----
    Mr. Tierney. But that's below a certain dollar amount, 
right?
    Mr. Miller. I haven't run into any major programs myself, 
in my personal experience.
    Mr. Putnam. Would the gentleman yield?
    Mr. Tierney. Sure, I'll yield.
    Mr. Putnam. For my benefit, maybe to stimulate some dialog 
for where you're headed as well, I would encourage other 
witnesses to jump in there as well.
    Mr. Tierney. Well, if they're qualified. I don't know. Mr. 
Levin may be, I don't know if the others are qualified for this 
area. But if they want to.
    Mr. Putnam. Dr. Graham.
    Mr. Graham. Thank you. I am a physicist and engineer who's 
been involved in one way or another with military hardware 
since I was a lieutenant in the Air Force. So at least I have 
some credentials going back on this subject.
    It depends on the state of the technology that you are 
pursuing as to what your aspirations are. As General Kadish 
tried to explain, aircraft are now about 100 years old. The 
Wright brothers did not have a carefully crafted set of 
criteria to which they subjected the first flyer, even though 
the military did try to buy an airplane from them soon 
thereafter.
    Obviously today we know a lot about airplanes and a lot 
about how to describe the characteristics we want. An example, 
perhaps closer to the ballistic missile defense challenge today 
would be the Manhattan project, where the goal was to build an 
atomic bomb, whatever that was. And the approach taken to it 
was multi-faceted. Enriched uranium bombs, plutonium bombs, gun 
bombs, implosion bombs, and so on, we tried a lot of things. 
And it turned out, unfortunately in some ways, it was easier 
than the physicists and engineers working on it thought.
    Over time, as we've become more sophisticated and 
knowledgeable about it, we've learned how to give more specific 
direction to the developers and to test them to some extent, 
although I'm afraid to tell you today we're not able to test 
our nuclear weapons stockpile any further. But there are a 
couple of examples of places where we don't have specific tests 
in mind when we began the development process.
    Mr. Tierney. One of the issues they have with that is that 
this project is about 8 to 10 times more expensive than the 
Manhattan Project is going to be, using today's dollars. And 
the other is that there are parts of this technology that 
certainly could be tested. If you throw it all together, as 
they have, it's a very clever way of throwing it all together 
and saying, we've never been to the end of this road before, 
but there are steps along the way and technologies along the 
way that ought to have benchmarks for us, not only as they are 
working individually, but as they are working in combination. 
That's where part of the problem comes on this thing.
    Mr. Graham. As an engineer, I'd say that testing is only 
one manifestation of the development program. It's a very 
important manifestation, but in fact you start out with the 
designs, you do calculations and you do simulations, then you 
do hardware in the loop tests, you evaluate it through all of 
that and finally, you run various types of tests. Most of which 
you do for engineering purposes to see if your models are 
accurately predicting the performance that you're achieving in 
the real world.
    Mr. Tierney. Without having any models to test that, right?
    Mr. Graham. The operational evaluation test is the final 
step in that, and in my mind, one of the less important ones.
    Mr. Tierney. But I think you hit it on the head when you 
said you had models that you were evaluating to see whether or 
not you were at that point in time. And that, I guess, comes 
back to our problem here, we're not going to be given those 
points of measurement and things to evaluate it against.
    Mr. Graham. There are a considerable quantity of models and 
simulations and hardware in the loop tests and facilities that 
are engaged daily in the ballistic missile defense program. I'm 
sure that, while I can't speak for General Kadish, I believe he 
would be more than pleased to have you and your staff visit 
those facilities and inspect them.
    Mr. Tierney. You're right, you can't speak for General 
Kadish, because he hasn't made that offer and he hasn't made 
those available. I think that's the reason we're having this 
hearing today.
    Mr. Levin. Mr. Tierney, can I add a perspective here?
    Mr. Tierney. Sure, please do, Mr. Levin.
    Mr. Levin. The General Accounting Office and TO&E are in 
lots of ways very similar as being outside critics of Missile 
Defense Agency and its activities. I think there is a natural 
healthy tension there between the parties. And you don't want 
everybody just nodding their heads, yes, everything's fine, 
everything's fine, and have the Missile Defense Agency come out 
and say, trust us, we know what we're doing, we're making 
progress, don't you see the tests, we intercepted everything 
just fine, you know, just keep giving us $7 billion.
    I mean, the perspective is, it doesn't hurt to have 
somebody looking from the outside and making suggestions. We 
did that in our Airborne Laser work for Chairman Shays and this 
committee. I think if the Missile Defense Agency adopts those 
recommendations, they'll make progress. Just like they're 
making progress in their testing program, because they're 
accepting the recommendations of Phil Coyle and TO&E that were 
made back in August.
    So there's a healthy tension, I think that's good.
    Mr. Tierney. Well, I think that's what we aim to continue. 
The problem is that under this new plan, I don't think we're 
going to have the opportunity to have a Phil Coyle or a GAO get 
the information they need to make those evaluations. I don't 
know if you're the person from GAO that could testify to it or 
not, but GAO has had considerable amount of difficulty getting 
information. Is that your experience, or somebody else from 
your office?
    Mr. Levin. Oh, I'm the person. I'm the person to talk to.
    Mr. Tierney. Well, and that's my point. We want that 
tension to be there, then people have to play straight up and 
fair.
    Mr. Levin. I take General Kadish and Mr. Christie at their 
words that there is now unfettered access. I'm not convinced 
that there was unfettered access before questions were being 
raised by yourself and others.
    In terms of GAO's access to date, we have had concerns. I 
can't say we've totally resolved those concerns. We are working 
with MDA, in fact, we have an ongoing task force, task group 
that meets about every other week to figure out what GAO can do 
to get better, put in better requests so MDA understands what 
we're asking for. And also what MDA can do to streamline its 
processes. We would like to be able to go to a meeting and say, 
please hand over the document right now. They feel like they 
need to take a look at what they're giving us internally. We've 
had problems getting things in a rapid fashion in the past, and 
so we've raised this level of concern all the way up to General 
Kadish. And they're trying to satisfy us, we're just not there 
yet.
    Mr. Tierney. And just to let you know, in Mr. Christie's 
testimony, he indicates that he's not yet involved in the other 
programs, other than the PAC-3 program, he is not involved the 
way he wants, and he says he's not there yet, but he wants to 
be. That's the issue, the same thing with your office, 
according to the information that we have. I yield back.
    Mr. Putnam. Thank you, Mr. Tierney.
    I'd like to direct my question to Ambassador Smith. You 
have a background in the international treaties and certainly 
working with the ABM Treaty. We're involved on an international 
basis today with Meads and Ramos and Arrow and SM-3 and some 
other things. Are there restrictions under INF and START that 
are any way a hindrance to the development of National Missile 
Defense?
    Ambassador Smith. Mr. Putnam, of course the chief 
impediment treaty was the ABM Treaty. But the fact is, there 
are some problems that we have that remain with the INF Treaty 
and the Start Treaty. The problems that arise are generally 
with creating good emulating target missiles. We have a 
situation where most of the missiles we worry about in the 
world are somewhere between the range of 550, 500 kilometers. 
China has them, Pakistan has them, Iran has them, we can go on 
with a long list of countries that can have them, want them.
    The two countries that can't have them are the United 
States and Russia. Unfortunately, up until now, that has also 
meant creating a modern target missile. So when an engineer 
goes to do the kind of realistic testing that is being 
demanded, the kind of realistic testing that I think MDA would 
like to do, he runs into that kind of a barrier. You run into 
similar problems with the START Treaty if you want to do this 
as a surface sea launch or an air launch. That is, if it has a 
range of greater than 600 kilometers, and you want to launch it 
from a surface ship, or you want to launch it out of an 
airplane, you can't do that under START.
    Now, the good news here is unlike the ABM Treaty, which 
frankly was something that simply was something of the past and 
had to be superseded, there was no way to fix it, I think if 
the will were there politically that these are the kinds of 
things we could reach either some amendments or understanding 
with the Russians. We don't need to attack these treaties 
wholesale. But the fact is, if you want a good, modern 
emulating the threat target missile, we need to do something 
about the INF Treaty and the Start Treaty.
    Mr. Putnam. Dr. Graham, you mentioned that the greatest 
threat, you believe, that is out there is a sea based, short 
range missile, perhaps even launched within our economic 
territory. Based on what Ambassador Smith has said, how do we 
prepare appropriate countermeasures, how do we adjust our 
homeland security plans, which is all the rage here in Congress 
right now? How do we prepare for that type of an attack?
    Mr. Graham. Well, right now, much of the country is in the 
same frame of mind that the population of the Hawaiian Islands 
were on December 6, 1941, believing that such an attack 
couldn't possibly take place. Unfortunately, those of us who 
are engineers and scientists who have worked in the defense 
area know that several countries have launched ballistic 
missiles from the decks of ships, the United States, Soviet 
Union, Iran, India and other European countries. It is not 
difficult to do.
    While North Korea may have a few Taepo-dong 2 missiles, 
there are literally thousands of Scud missiles being built by 
tens of countries in the world today. And by my example of the 
collector who bought two of them, I tried to show how easily 
they can be obtained.
    So in the approach that says, don't give your enemies any 
free shots at you, it seems to me that we should take an 
interest in developing or in deploying defensive capability 
against the near offshore threats, just as we are developing 
capability against the long distance missile threats. Putting 
PAC-3 near coastal cities would give those cities not only 
short range ballistic missile defense but also cruise missile 
defense and hostile aircraft defense. That's quite feasible, 
the PAC-3 is coming into the inventory very shortly. In the 
past, the United States has had many city located ground based 
anti-aircraft systems deployed in their proximity. I think Los 
Angeles alone had about a dozen Nike sites back in the 1950's 
and 1960's, and most large U.S. cities did, too. So we may have 
to move in that direction and augment that with other systems 
like THAAD, Aegis, and Aegis when they come on line.
    I think it's eminently doable. Our problem isn't our 
technical ability to intercept such threats. Our problem is our 
perceptual ability to conceive that such threats could threaten 
us.
    Mr. Putnam. What type of platform requirement is there? 
Could it be launched from something that's camouflaged as a 
commercial fishing vessel? What are we involved in there? In 
other words, how difficult is it, if it's easy for a collector 
to buy a Scud, how easy is it for him to actually acquire the 
warhead, the fuel and the ability to launch that, if you were a 
nonstate actor?
    Mr. Graham. It's not difficult at all. In fact, the world 
market is awash with that equipment, and you can buy it as a 
private individual, you can buy it as a transnational group, 
you can buy it as a small country. And in addition to that, it 
can be deployed on relatively small ships, small tramp 
steamers, medium size fishing boats. You can disguise it as a 
couple of cargo containers until such time as you want to erect 
the missile and launch it. That too is not difficult.
    So it's available, the fuels are available, the techniques 
for launching them are widely known, and there are many trained 
people in the Eastern Bloc and elsewhere who have acquired that 
skill. It's just nothing that has large barriers to keep it 
from being done, should some group want to do that.
    Mr. Putnam. Do you believe that's a greater threat than the 
longer range threat?
    Mr. Graham. I believe that there are more short range 
missiles that could be launched that way today than there are 
long range missiles, if you exclude Russia and China. But more 
fundamentally than that, I believe that if we neglect and 
completely ignore any aspect of our defense, be it from cruise 
missiles, aircraft, ballistic missiles, long or short range, if 
we neglect any aspect of that, we're inviting terrorists, 
adversaries, to take advantage of that neglect to attack us. 
And that has been the story of our being attacked in the past. 
After all, if the United States is thinking about a threat and 
preparing itself for it, we are very difficult to beat. But 
when the United States doesn't conceive of the threat and pays 
no attention to it, that's when we find ourselves vulnerable.
    Mr. Putnam. Ambassador.
    Ambassador Smith. Mr. Putnam, if I may just reinforce what 
Dr. Graham has said. This worldwide market out there is 
extremely active. The editor of Jane's Rockets and Missiles has 
actually traced the collusion between Pakistan and Iran and 
North Korean in building these things. I think it's no accident 
that a lot of the countries we're talking about also happen to 
find themselves on the State Department's list of state 
sponsors of terrorism.
    We tend to think of a state with a missile and we sort of 
mirror image the kinds of protections we have here, or even to 
a slightly lesser extent but nevertheless real the kinds of 
protections the Russians have. The fact is, what we're finding 
now as we look at the situation in the Pakistan-Afghanistan 
area, there are things we didn't know about Pakistan, or at 
least most Americans didn't know. There are entire areas called 
the border areas and the tribal areas that are simply not 
administered by the Federal Government of Pakistan. We have the 
Inter-Services Intelligence Agency that was in collusion with 
the Taliban in Afghanistan. It is still extremely powerful and 
one of the biggest problems that General Musharef has trying to 
get his hands around this.
    The notion that somehow a missile or a warhead or both are 
cobbled together from here or there could somehow slip out of 
the arsenal of a state and into the hands of a fairly well 
organized terrorist group is not all that fantastic. Anyone who 
wants to scoff at this should take a look at what we were 
thinking before September 11th. That was the stuff of Tom 
Clancy. This is not all that far-fetched. The notion that 
somebody could have a handful of these on a ship is really not 
that far-fetched.
    I'd also like to comment about the notion of a long range 
missile, because it seems to me that the nearer term threat and 
the greater numbers are exactly as Dr. Graham suggests. There 
are more Scuds out there that you could put on a ship. If you 
wanted to use a missile against the United States, you put a 
Scud on a ship. In the longer term, countries are working on 
things like ICBMs. I think there you get into a different sort 
of threat, and that's the threat of geopolitical blackmail, 
keep the United States out of my area. That's a different 
threat, but nevertheless also one that is real that we have to 
protect against.
    Mr. Putnam. Mr. Miller, you said that thorough testing 
should not be sacrificed for expediency. When would it be 
expedient to sacrifice thorough testing, if ever? In time of 
war? And that's open for anyone on the panel.
    Mr. Miller. I'm not exactly sure at which point it would 
become expedient. But I think as a broader question, you might 
have to ask what program should be exempt from traditional 
testing and oversight. I'm not sure it would be based strictly 
on immature technology, because I think although the technology 
and missile defense may be immature, and I'm not an engineer 
but it's been in development since probably 1983.
    And it's been around a while, and I know there are numerous 
weapons systems that have had immature technologies in various 
aspects, for example, the Crusader, which was recently 
canceled, or may be canceled, or recommended for cancellation. 
They had a benchmark of having a liquid propellant, they tested 
it, the liquid propellant didn't work. But I'm not sure that 
just because you have an immature technology that you don't 
have benchmarks.
    Mr. Putnam. Does anyone else want a stab at that?
    Mr. Levin. What we're trying to see MDA do, to a much 
greater extent than they're doing now, is using technology 
readiness levels to measure the maturity of the technology, so 
you understand exactly how representative your hardware is and 
how representative and how realistic the environment is that 
you're testing your equipment in. So what we would like to see 
is a greater emphasis on using the TRLs to manage the program. 
These are the kinds of benchmarks that I think provide the 
transparency and accountability and understanding of progress 
that aren't there today.
    You might reach a point where you feel like you have to put 
emergency capability into place because of the threat. It's 
good to know exactly what the limits are of your capability. 
And you might make a decision, well, despite the limits, I'm 
going to put it into operation, because of the threat. But it's 
good to know what those risks are.
    But under normal, non-emergency situations, I mean, you 
want to have a disciplined process for developing the 
technology. That's what we're looking for.
    Mr. Putnam. I'm glad that you mentioned the TRLs. We 
borrowed that from NASA. To me there's a lot of parallels 
between NMD and the space program. When we launched the space 
program, were there milestones, were there benchmarks other 
than we will put a man on the moon by the end of this decade?
    Mr. Levin. I'm not that familiar with how NASA used TRLs. 
Although like you said, NASA did develop the TRL metric.
    What we have learned, certainly, is that you can't try to 
set schedules, like getting a man on the moon or intercepting a 
ballistic missile at 2,400 kilometers by a certain date, with 
an operational system, unless you've done the hard work of 
development and testing and built your TRLs from what, in the 
case of Airborne Laser and many other missile defense systems 
is still pretty immature. You have to be able to build over 
time, build and test and see what your capability is. And then 
what GAO recommends is you reach what we call knowledge point 
one. It's kind of hard to see on the slide, I hope you have it 
in front of you. That's where you'd come to a match between 
what your technology can do and how it's proven out and how 
realistic it is and what the capability you need and the 
requirements are. You're supposed to freeze the requirements at 
that point. That's when you can set the cost and schedule.
    Until you reach that match between the requirements and the 
available resources, which is the technology, the time and the 
money, your estimates are going to be very unrealistic. That's 
what we saw in the Airborne Laser, where the program was 50 
percent over budget and 4 years behind schedule.
    Mr. Putnam. Mr. Tierney, did you have any other questions?
    Mr. Tierney. No, Mr. Chairman. I'm aware that there's 
another committee that wants this room and is entitled to it. I 
want to thank all the witnesses for their time, for listening 
to the first panel as long as it took and for your testimony 
today.
    Thank you.
    Mr. Putnam. We appreciate your input very much. Is there 
anything very briefly that has gone unsaid that you have been 
sitting there all morning waiting to be asked and haven't had 
the opportunity to give us anything? Anyone? Dr. Graham, very 
briefly.
    Mr. Graham. Thank you, Mr. Chairman, very briefly. I would 
say a great deal has been made about the reality of testing. I 
would say that testing as an engineering discipline is a much 
richer subject than just a reality or not reality 
characterization. You will never have a test so real that it is 
a missile under the control of a hostile country launched from 
that hostile country on their preferred trajectory at us. So in 
that sense you will never have a fully realistic test.
    On the other hand, as an engineering discipline, a lot is 
done about predicting how interceptors as well as the targets 
fly before they are ever launched. And the real meat of the 
subject is in the comparison of how the systems we're 
developing perform against the models and simulations we do and 
then against the models and simulations of the threat.
    One last comment. In most cases, we will know more about 
countermeasures enemies are using against us than they do, 
because if they test them, we have far better sensors to 
observe their performance than the enemy does, both space 
based, air, ground and sea based sensors. If they don't test 
them, they will have very little confidence in their ability to 
perform.
    Mr. Putnam. Anyone else? Mr. Miller.
    Mr. Miller. I would just encourage you as guardians of the 
public interest to continue to monitor the financial and 
testing aspects of the program. It is one of the most expensive 
ever weapons systems development in the history of the country. 
And we would sure hope you would keep an eye on it. Thank you.
    Mr. Putnam. We will, and I know Mr. Tierney will. And we 
appreciate all of your efforts and everyone's participation. 
With that, the hearing stands adjourned.
    [Whereupon, at 2:37 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
